<html>
<title> - OVERSIGHT OF THE ONGOING RAIL, PIPELINE, AND HAZMAT RULEMAKINGS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





    OVERSIGHT OF THE ONGOING RAIL, PIPELINE, AND HAZMAT RULEMAKINGS

=======================================================================

                                (114-12)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-181 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
        
        
        
        
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
JOHN L. MICA, Florida                CORRINE BROWN, Florida
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
CANDICE S. MILLER, Michigan          JERROLD NADLER, New York
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
BLAKE FARENTHOLD, Texas              RICK LARSEN, Washington
RICHARD L. HANNA, New York           STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 GRACE F. NAPOLITANO, California
JOHN KATKO, New York                 JANICE HAHN, California
BRIAN BABIN, Texas                   PETER A. DeFAZIO, Oregon (Ex 
CRESENT HARDY, Nevada                Officio)
MIMI WALTERS, California
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES
                                Panel 1

Hon. Jackie Speier, a Representative in Congress from the State 
  of California, testimony.......................................     5

                                Panel 2

Sarah Feinberg, Acting Administrator, Federal Railroad 
  Administration:

    Testimony....................................................     7
    Prepared statement...........................................    45
    Responses to questions for the record from the following 
      Representatives:

        Hon. Michael E. Capuano, of Massachusetts................    65
        Hon. Jared Huffman, of California........................    74
Timothy P. Butters, Acting Administrator, Pipeline and Hazardous 
  Materials Safety Administration:

    Testimony....................................................     7
    Prepared statement...........................................    77
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves, of Missouri.............................    97
        Hon. Michael E. Capuano, of Massachusetts................    99
        Additional questions for the record......................   124
Hon. Christopher A. Hart, Chairman, National Transportation 
  Safety Board:

    Testimony....................................................     7
    Prepared statement...........................................   126
    Responses to questions for the record from Hon. Michael E. 
      Capuano, a Representative in Congress from the State of 
      Massachusetts, with a list attached of the National 
      Transportation Safety Board's open recommendations to the 
      Pipeline and Hazardous Materials Safety Administration.....   142

                       SUBMISSIONS FOR THE RECORD

Timothy P. Butters, Acting Administrator, Pipeline and Hazardous 
  Materials Safety Administration, response to request for 
  information from Hon. John L. Mica, a Representative in 
  Congress from the State of Florida.............................   156


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
    OVERSIGHT OF THE ONGOING RAIL, PIPELINE, AND HAZMAT RULEMAKINGS

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m. in 
room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The Subcommittee on Railroads, Pipelines, and 
Hazardous Materials will come to order. First, I would like to 
ask unanimous consent that Representatives Cheri Bustos and 
John Garamendi be permitted to join the subcommittee for 
today's hearing and ask questions.
    [No response.]
    Mr. Denham. Without objection, so ordered.
    Our hearing today will focus on numerous matters related to 
current railroad, pipeline, and hazardous material rulemakings 
within the subcommittee's jurisdiction. Last year, we had two 
hearings that covered these ongoing rulemakings: one on 
hazardous materials safety and tank cars and the other on 
pipeline safety.
    I have heard too many times from industry and safety 
advocates that the Department of Transportation needs to move 
more quickly to implement the safety provisions Congress has 
passed. It is unusual to hear that industry wants to be 
regulated, and is pushing for rules to actually be completed. 
But the reality is companies can't invest in new equipment, in 
new employees, and in new ventures without regulatory 
certainty. In those two hearings, we expressed our frustration 
with the administration. Not enough progress has been made 
getting these numerous rules out.
    Sadly, today we are back asking the same questions. Where 
are these rules? Why are they still delayed? What is the 
administration doing about it?
    We believe in a risk-based, data-driven approach to safety. 
The administration states that they do as well. So, it should 
be easy to come up with rules that are data driven, apply cost-
benefit principles, and get them out so both the public and 
industry can act accordingly.
    This brings me to another point with the administration. 
Last year we had both FRA and PHMSA Administrators come before 
us to answer for the administration. Now we have two Acting 
Administrators. Mr. Butters and Ms. Feinberg have been good to 
work with. We appreciate their service, and our frustration has 
nothing to do with either of them personally. But these are 
very important times, and we need certainty in these agencies' 
leadership. Yet, the administration has not formally nominated 
anyone for these top safety positions.
    I would like to take a moment to thank Ms. Feinberg for 
coming to California last week at my request. I brought local 
leaders together to ask questions of FRA, and they had similar 
questions of what we have today. But, specifically, the people 
of the Central Valley are as concerned about rail safety as the 
rest of the country. We have been waiting and waiting for the 
new final crude-by-rail rule to be released, so that the Nation 
can move forward in creating safer rail systems.
    Notably, Congress has acted on multiple occasions to speed 
this process along, and even imposed a statutory limit for 
releasing a finalized crude-by-rail rule. That deadline was 
promptly missed by the administration, which has led us to 
having this hearing today.
    Again I want to thank you for coming to California last 
week. I hope it was--provided you a good perspective of what we 
are looking at from the Central Valley, and why the rule is 
important. I know my constituents appreciated it, our first 
responders and local elected officials appreciated it.
    But to summarize, I hope to hear the status of the crude-
by-rail rule. Specifically, is it still at OMB? Has OMB sent 
the rule back to the agency for further analysis? And when will 
it actually be published?
    I look forward to hearing about the comments from DOT about 
the draft rule, how DOT is planning to address the final rule. 
And, additionally, I would like to hear each panelist's 
opinions on actually implementing the rule.
    We have heard from many different sides on this issue on 
the capacity of American tank car manufacturers and how quickly 
a new mandate can be implemented. So I would ask that you 
please provide this committee with what you think that capacity 
is, and how soon the tank car designs will be able to be 
completely phased in in our Nation's freight network.
    In closing, I look forward to hearing from our witnesses 
regarding these issues.
    I would now like to recognize Ranking Member Capuano from 
Massachusetts for 5 minutes for any opening statement he may 
have.
    Mr. Capuano. Thank you, Mr. Chairman. Mr. Chairman, it was 
interesting. I think you just stole my opening statement. I 
agree with everything you just said, except the phrase, 
``Central Valley.'' Just change that to ``New England.'' He is 
100 percent right. I have nothing to add to it.
    I am looking forward to this hearing, and I am looking 
forward to truly engaging. Because, to be perfectly honest, 
some of the concerns I have--and I am still learning a lot of 
this stuff--it is just unacceptable. It is just unacceptable. 
And I am a supporter of the administration. I know we have new 
people in place, but I think today is going to be not as much 
fun as some of you might like, because, honestly, you are going 
to have a hard time telling me why some of these things have 
taken this long.
    But, with that, I yield back, Mr. Chairman, and thank you 
for allowing me to give my speech.
    Mr. Denham. Thank you. Now I call on the full committee 
chairman, Mr. Shuster, for any opening statement he may have.
    Mr. Shuster. Thank you, and good morning, everybody. 
Appreciate Chairman Denham and Ranking Member Capuano for 
having this hearing today. I think you are going to hear a lot 
of sentiment that is shared by Mr. Capuano and Mr. Denham 
throughout this hearing today.
    I want to begin by saying safety is the highest priority of 
this committee, and it is the number-one job and the number-one 
task of the Department of Transportation for you to carry out 
that safety mandate. Our railroads and pipelines are critically 
important for safe movement of goods and people around this 
country.
    The good news is that overall safety trends in both modes 
are trending in the right direction, and that is positive. 
However, there have been accidents over the past 12 months 
dealing with rail and pipeline that--so it is important for us 
to take a close look at this. As a member of this committee, it 
is important, but also as someone who--in my district we have a 
significant number of oil trains that pass through each day. 
Adjusting regulations to changing market conditions is a 
complicated task. And having regulators draft up rules for 
comment by those impacted is the right way to go about making 
regulatory changes. However, it is very important the 
administration carefully base those rules on data, and that--
take a risk-based approach. I think that is the smart way for 
us to move.
    I am concerned that DOT has not been able to move many of 
the mandated rules from the 2011 Pipeline Safety Act. I would 
like to know why they haven't moved forward. And I would also 
like to hear about the status of the hazmat mandates in MAP-21. 
I have concerns about the administration's slow pace addressing 
the increased movement of crude-by-rail. And, as Mr. Denham and 
Mr. Capuano have pointed out, it is far too slow. It needs to 
happen. The industry, as Mr. Denham points out, is crying out 
to get a new standard on these tank cars. The NTSB has called 
for new tank cars. I have even sent a letter to OMB and to DOT 
and have yet to get a response on where we are in the process. 
We need to get moving forward.
    I appreciate everybody being here today. I would just 
probably warn you it is going to be a vigorous question and 
answer period here today, finding the answers we need to hear. 
It has--again, it has gone on far too long, and we need to have 
answers.
    I appreciate Representative Speier being here today. I know 
she has great concerns over pipeline safety, and we look 
forward to hearing from her today, also.
    So, thank you very much, and yield back.
    Mr. Denham. I now call on the ranking member of the full 
committee, Mr. DeFazio, for any opening statement he may have.
    Mr. DeFazio. Thank you, Mr. Chairman. You know, later this 
year we are looking at pipeline reauthorization. And I have got 
to say, as a member of the committee, I am going to wonder why 
we should do that, because we still haven't implemented the 
majority of the 2011 Act.
    I mean, you know, if you look at what is not done: 
automatic shutoff valves not done, leak detection not done. You 
know, there is a number of really critical mandates from this 
Congress that aren't done. One is rumored to be sitting on the 
Secretary's desk, one is rumored to have moved to OMB a year 
ago. We really don't know. I mean, in part, it points to, I 
think, the need for changes in the regulatory system itself, 
and creating more transparency, and I would love to address 
that at another time. I won't get into that too much now, but 
those cause tremendous concerns.
    The DOT-111 tank cars, Mr. Chairman, you sent them a 
letter, you didn't hear back. I called them yesterday, and it 
was opaque, as usual, but we can expect something very robust 
in the not-too-distant future, probably. So there is your 
answer.
    And they are aware of the recent concerns that were 
expressed by NTSB in investigating the last two accidents, West 
Virginia and Virginia, and some of the new conclusions 
regarding the 1232 cars, the lack of thermal insulation, et 
cetera. They are aware of those things. That made me feel 
really good. So, there is that.
    You know, we are really talking about life and death here 
on a lot of these issues. And there is another area which I 
intend to have some questions regarding the transport of 
lithium batteries. We have a number of domestic air carriers 
who have just drawn a line in the sand and said, ``We are not 
carrying those things on passenger planes any more.'' And it is 
rumored this came out of a briefing of ICAO down in South 
America with the manufacturers, and the fact that the fire 
suppression systems on those planes cannot deal with lithium 
battery fires and occurrences that have happened. And yet we 
are locked in a place--a former Congress said that they can't 
exceed the ICAO standards. The ICAO standards are laughable. 
Whatever the Chinese want to put into a crummy cardboard box 
and stick into an airplane and not label, that is fine with 
ICAO. So I will be raising some issues about that, too.
    We really are talking about life and death here. We need a 
more transparent, more efficient process. We created PHMSA back 
when Norm Mineta was Secretary, with the idea that we needed to 
have a laser-like focus and more efficiency and more distance 
from the regulated entities, and the solution was supposed to 
be PHMSA. I really wonder if it has worked. I wonder if we 
would be better off if we had some people who just looked at 
pipelines. That is a unique mode. If we had safety people in 
FRA who were dealing with tank cars and understand railroads 
better, and if we had the aviation people dealing with stuff 
that the industry itself says it doesn't want to carry on 
airplanes. We are not seeing the kind of performance we need 
here out of this theoretically integrated, efficient agency 
that should be at arm's length from all of those that they 
regulate.
    So, those are a few of the questions I have today, Mr. 
Chairman. Thank you.
    Mr. Denham. Thank you, Mr. DeFazio. We have two panels 
today. Our first panel is with Representative Jackie Speier 
from California. After receiving testimony from our first 
panel, we will proceed immediately to our second panel.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Denham. Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    Ms. Speier, you may proceed. Welcome to the Committee on 
Transportation and Infrastructure.

 TESTIMONY OF HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Speier. Mr. Chairman, thank you. And to Ranking Member 
Capuano, to Chairman Shuster, and Ranking Member DeFazio, I 
really appreciate the fact that you are holding this hearing 
today, because I have struggled with pipeline safety now for 5 
years. And we have made very little progress. The system, 
frankly, is fundamentally broken.
    It is personal to me. I have spent hundreds of hours in 
hearings, in boardrooms, at town halls, and very little has 
changed. It has scarred not just my district, but the entire 
region.
    This is a distant view of the Pacific Gas and Electric 
natural gas pipeline explosion in San Bruno, California. When 
it happened in September of 2010, everyone thought that a plane 
had dropped out of the sky, the explosion was so great, and 
seen so far away.
    Closer up scenes were horrific. Eight precious lives were 
lost. Many others were hospitalized for months with life-
threatening burns. I visited many of them at the burn center in 
San Francisco. Three people were considered missing for more 
than 2 weeks, because there was so little DNA from the intense 
fire to positively identify them. Thirty-eight homes were 
completely destroyed, and dozens more were seriously damaged. 
It looked like a war zone.
    Those numbers do not adequately describe the terror that 
was inflicted on an entire community. And all this was caused 
by a pipeline that hadn't been inspected since 1956, thanks to 
the irresponsible gaping hole in our regulations known as the 
Grandfather Clause. And Congress put the Grandfather Clause in 
place. And then, in 2011, we said to PHMSA, ``We want you to 
take this out, and you have 18 months in which to do it.'' We 
are 3 years later, and still they haven't done it. I have sent 
letters to them, and they come back with, frankly, 
gobbledygook.
    This is a piece of pipe that failed in San Bruno because 
the Grandfather Clause was--allowed it to go uninspected for 
decades. The Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011 eliminated this terrible policy, which 
previously had allowed companies to bypass comprehensive 
inspections of older pipes. But here we are, in 2015, and PHMSA 
has not yet released a rule implementing those reforms.
    Frankly, how difficult is it to strike a line in a law that 
says the Grandfather Clause is no longer in effect? The 
deadline to release the rule, as I said, was 18 months, and it 
has been twice as long. It is clear to me that PHMSA is a 
toothless tiger without the clout to make the serious reforms 
recommended by respected institutions such as the National 
Transportation Safety Board. PHMSA keeps saying that it is 
working on an improved integrity management system. But after 
industry complained that it was too expensive, PHMSA allowed 
its nascent rulemaking to be quietly consigned to the 
bureaucratic dustbin.
    While safety does cost money, so does death and 
destruction. On this slide is what the utility responsible for 
San Bruno--Pacific Gas and Electric--has paid, or may pay, that 
we know about so far. The stunning figure is $3.9 billion. This 
is paid by shareholders, not by ratepayers.
    California's problem with PHMSA and its own State pipeline 
regulatory agency are a microcosm for the rest of the Nation. 
Despite PHMSA's paying for about 80 percent of pipeline safety 
program costs, a crony culture developed between the industry 
and State regulators in California, and PHMSA claims they can 
do nothing about it. Despite mounds of evidence showing that 
industry executives were wining and dining top State regulators 
and flouting ex parte communication rules, PHMSA claims to be 
powerless to bring CPUC to its heels. Considering that PHMSA 
holds the power of the purse, I find this hard to believe.
    Now, in exposes that have occurred in California, PG&E 
email exchanges with the California Public Utilities Commission 
exposed complicity of CPUC in judge-shopping, in advice, in 
public relations, engagement in the initiative process, and a 
quid pro quo relationship.
    This bankrupt safety culture regularly defeated enforcement 
of Federal and State standards. Just today, an external auditor 
found that the CPUC gas safety enforcement efforts have 
actually gotten worse and slower since the explosion in San 
Bruno. This is unacceptable, and PHMSA must step in.
    But this is par for the course for PHMSA. In the aftermath 
of the San Bruno disaster, I met with then-Administrator 
Quarterman many times. Each time, as I pushed for regulations 
that would actually improve pipeline safety across the Nation, 
she would say, ``We don't have the authority.'' I am sure that 
was true in some cases, but in the case of the Grandfather 
Clause, PHMSA has crystal-clear authority and still refuses to 
act. In this case, PHMSA is not only a toothless tiger, but one 
that has overdosed on quaaludes and has passed out on the job.
    In addition to the technical issue of proper integrity 
management, PHMSA's oversight of safety programs is lax. They 
have been amply described in formal reports by both the NTSB 
and the Department of Transportation inspector general. PHMSA's 
problems, which Congress must help them address, are clear. 
PHMSA's guidance, protocols, and training for State inspectors 
are inadequate. PHMSA's pipeline location data has internal 
discrepancies. PHMSA's database makes it more difficult for 
operators to learn from incidents. Overall, neither industry 
nor State nor Federal Government produces good pipeline safety 
data. It is garbage in and garbage out.
    Though I have talked about San Bruno, I want to emphasize 
that the lack of adequate pipeline safety measures is a 
nationwide problem, not a bay area or California problem. In 
2011, a leak from an 83-year-old cast-iron main in Allentown, 
Pennsylvania, in the chairman's district, caused a blast that 
killed five people. In 2012, a gas pipeline explosion outside 
of Charleston, West Virginia, destroyed several properties. In 
2014, a leak in a 127-year-old pipeline in Harlem, New York, 
killed 8 and injured 50 more. In each incident we see the same 
reoccurring problems: aging infrastructure and inadequate 
inspection. How many more of these tragedies do we need before 
we get serious about pipeline safety?
    In closing, I urge the chairman, ranking member, and 
committee members to keep the tragedy of San Bruno in mind as 
you conduct oversight and start to consider reauthorization of 
PHMSA's Federal pipeline safety program. We know how to prevent 
pipeline explosions.
    Look at this picture here. It is, indeed, a war zone. We 
need automatic remote control shutoff valves. Now, PG&E has put 
in 200 of them now. The law that we passed in 2011 said that 
you only had to put them in if they were technologically 
available and economically feasible. When is it going to be----
    Mr. Denham. Ms. Speier, I would ask you to wrap it up.
    Ms. Speier [continuing]. Economically feasible?
    I know I need to close, so thank you, Mr. Chairman, for the 
opportunity to speak.
    Mr. Denham. Thank you, Ms. Speier. Thank you for your 
testimony today.
    I would now like to welcome our second panel of witnesses: 
Sarah Feinberg, Acting Administrator from the Federal Railroad 
Administration; Tim Butters, Acting Administrator, Pipeline and 
Hazardous Materials Safety Administration; and the Honorable 
Christopher Hart, Chairman of the NTSB, the National 
Transportation Safety Board.
    Welcome to this morning's hearing. I would reiterate once 
again that I appreciate your openness, your communication, as 
well as I know a number of members of this committee have 
expressed their appreciation for your accessibility and 
responsiveness to questions that we have had.
    Ms. Feinberg, you may proceed.

  TESTIMONY OF SARAH FEINBERG, ACTING ADMINISTRATOR, FEDERAL 
      RAILROAD ADMINISTRATION; TIMOTHY P. BUTTERS, ACTING 
    ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
    ADMINISTRATION; AND HON. CHRISTOPHER A. HART, CHAIRMAN, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Feinberg. Thank you. Chairman Denham, Ranking Member 
Capuano, Ranking Member DeFazio, members of the subcommittee, 
thank you so much for the opportunity to appear here before you 
today.
    As Acting Administrator, I have already had the privilege 
of meeting with many of you, and even visiting some of your 
districts. Mr. Denham, I want to thank you for hosting me last 
week in your district. I was grateful to spend time with your 
constituents. And, Mr. Garamendi, I enjoyed spending time in 
your district, as well.
    Let me start off today by saying that I welcome all of your 
continued interest and efforts to work closely with the FRA, 
and I can assure you that working closely with this committee 
is a top priority of mine.
    In my 3 months serving as Acting Administrator, the FRA has 
responded to five major rail incidents, some involving deaths 
and injuries, and many smaller incidents. Each incident has 
underscored for me FRA's top priority, which is improving 
safety.
    Safety has always been the priority of the agency, and it 
always will be. At the FRA we have a mandate to provide 
oversight, enforcement, and regulations that will set the bar 
for rail safety. It is a challenging task, and one that demands 
collaboration and cooperation. As stipulated by the U.S. 
regulatory process, we do not have the freedom to simply 
conceive of a new safety regulation and allow it to become the 
law of the land. The regulatory actions we issue must be born 
out of a robust dialogue with all stakeholders, the public, and 
industry, and a rigorous economic analysis that considers both 
the benefits to safety and the cost to industry.
    In other words, as the chief rail safety regulator, we are 
tasked not just with raising the bar on safety, but also with 
ensuring that, as we raise that bar, we are taking all 
perspectives and opinions into account.
    Since Congress passed the Rail Safety Improvement Act in 
2008, the FRA has completed action on 33 tasks, including 
rules, studies, reports, and other actions, with 10 tasks still 
to be completed. That work has improved safety outcomes. It has 
also enabled us to focus on some of our greatest challenges, 
and challenges where the stakes are the highest: the safe 
transport of energy products like crude oil, track hazards, and 
grade crossings.
    That said, thanks in great part to this committee's 
leadership and partnership with the FRA, the rail industry is 
safer than it was a generation ago. But we have a long way to 
go. For years, the FRA has had success with our prescriptive 
rulemaking and enforcement program. But getting to the next 
level of safety requires us to be innovative. This includes 
pushing forward with risk reduction programs like the 
Confidential Close Call Reporting System, plus system safety 
programs for passenger operations. The programs uncover root 
causes behind accidents, and help identify accident precursors, 
enabling railroads to put prevention measures in place.
    We also continue to work on a final rule for securing 
unattended train equipment, and proposed rulemakings related to 
train crew size and passenger equipment safety standards. And, 
of course, we remain laser-focused on our work to ensure the 
safe transport of energy products. In partnership with our 
colleagues at PHMSA, we are completing work on a final 
comprehensive rulemaking that addresses prevention, mitigation, 
emergency preparedness, and response to crude train incidents.
    We are also taking an aggressive posture against the rising 
tide of highway rail grade crossing incidents. In addition to 
calling for increased grade crossing improvement funding in the 
GROW AMERICA Act, we have partnered with law enforcement. And 
law enforcement in New York, California, Idaho, Illinois, and 
elsewhere are responding. We are grateful for their help, and 
we will continue this effort as we broaden our focus on a 
public awareness campaign.
    Additionally, as RSIA required, we continue to work with 
railroads to implement Positive Train Control. We look forward 
to continuing to work with this Congress and the industry and 
its suppliers in addressing the obstacles preventing its swift 
implementation.
    And, finally, we look forward to working with this Congress 
on the reauthorization of a surface transportation bill that 
includes rail. The House has already made great strides in this 
area by passing legislation focused on passenger rail. We 
greatly appreciate this committee's work on that priority. We 
look forward to working with this Congress on a package that 
will also enable the FRA to balance our regulatory framework 
with innovative, proactive ideas that will advance safety and 
provide capital investments that serve as a foundation for the 
next generation of safety improvements.
    Thank you again, Mr. Chairman. I look forward to taking 
your questions.
    Mr. Denham. Thank you, Ms. Feinberg.
    Mr. Butters, you may proceed.
    Mr. Butters. Good morning. Chairman Denham, Ranking Member 
Capuano, and Ranking Member DeFazio, thank you. And the other 
members of the subcommittee, thank you for having me appear 
before you this morning.
    As you know, PHMSA's mission is the safe transportation of 
hazardous materials. Over 1 million shipments move every day in 
the United States by air, rail, truck, and marine vessel. We 
are also charged with the safe operation of about 2.6 million 
miles of hazardous gas and liquid pipelines.
    The transportation of these products is critical to our 
Nation's economy and our quality of life, and we take our 
responsibilities very seriously.
    Because these transportation systems are privately owned, 
it places primary responsibility and accountability for the 
safe operation of those systems on the owners and operators. 
They must ensure their equipment and facilities are maintained 
and operated safely, above and beyond what is required by 
regulation. Our job at PHMSA, along with our State partners, is 
to ensure these systems are in compliance with Federal safety 
requirements through vigorous inspection and enforcement.
    Unfortunately, recent incidents involving hazardous 
materials have underscored the absolute importance of PHMSA's 
mission. I have seen firsthand the aftereffects of rail 
incidents in Lynchburg, VA, Mount Carbon, WV, and the impact of 
pipeline failures in San Bruno, CA, Sissonville, WV, Marshall, 
MI, and, most recently, in Glendive, MT, and the impact that 
these have had on those communities.
    It is our duty to ensure the public has the confidence that 
their safety and the environment are well protected. Although 
there have been several recent high-profile incidents, history 
has shown that these incidents are infrequent. The overall 
safety record for the transportation of hazardous materials in 
the U.S. is very good, and continues to improve. Pipeline and 
hazmat incidents involving fatalities, major injury, or 
significant environmental damage have been on the steady 
decline since 1988. While the safety record has been good, it 
is not good enough, and more needs to be done.
    Significant incidents are rare, but can have significant 
and devastating consequences. In the fiscal year 2015 budget 
approved last December, PHMSA was authorized with 120 new 
positions for both our hazmat and pipeline safety programs. We 
are fully engaged to fill these positions, and we are at nearly 
30 percent thus far, noting that we are also competing with the 
private sector that is also needing to fill jobs. I am 
confident that we will have most of these positions filled by 
the end of this calendar year.
    The dramatic growth in domestic energy production across 
the country has also generated a great deal of attention to the 
safe transportation of flammable liquids by rail, primarily 
shale crude oil, and rightfully so. We are very cognizant of 
these concerns, and the entire Department, beginning with 
Secretary Foxx, understands the importance and urgency to 
address these issues. Our comprehensive strategy, focusing on 
prevention, mitigation, and emergency preparedness in our final 
rule to improve the safe transportation, has been our highest 
priority. It is currently under review by OMB, and we expect it 
to be released very soon.
    But we aren't waiting on new regulations to address safety 
concerns that can be addressed now. We have and will continue 
to use every available option to take immediate action, and 
stand prepared to take additional steps. DOT has successfully 
engaged the rail industry, the hazmat industry, and pipeline 
industry through various calls to action, asking them to take 
additional safety actions in the face of these incidents.
    In 2013 we launched an effort that we now call Safe 
Transportation of Energy Products--unannounced inspections--to 
ensure shippers are properly testing and classifying crude oil 
and other flammable liquids. I am encouraged by the shippers' 
increased efforts to properly test and classify hazmat since we 
started this program 2 years ago.
    PHMSA remains focused on meeting the congressional mandates 
that were included in the Pipeline Safety Act of 2011 and MAP-
21. The NTSB has also issued 49 pipeline safety recommendations 
since 2011, including 22 recommendations issued this past 
January. PHMSA has completed half of the Pipeline Safety Act's 
mandates, four of the six required regulatory actions under 
MAP-21, and we have satisfied many NTSB recommendations.
    I have had the opportunity to meet with many of you 
individually, and also visit some of your districts, and I 
appreciate the support of this subcommittee and what it has 
provided to PHMSA. We look forward to working with this 
Congress to advance PHMSA's safety mission. I am pleased to 
answer any questions that you may have.
    Mr. Denham. Thank you, Mr. Butters.
    Mr. Hart, you may proceed.
    Mr. Hart. Thank you. Good morning, Chairman Denham, Ranking 
Member Capuano, and members of the subcommittee.
    In the last few years, we have experienced an exponential 
increase in the carriage of flammable liquids by rail. With 
this growth, the NTSB's rail and hazardous materials 
investigators have responded to an increasing number of 
accidents.
    Currently, we are investigating a crude oil accident near 
Casselton, North Dakota, that occurred in December 2013, in 
which 20 cars derailed and nearly one-half million gallons of 
oil spilled, burning for more than 24 hours.
    We are also investigating accidents involving industry 
specification CPC-1232 tank cars that were designed to improve 
crashworthiness. These include a derailment in Lynchburg, 
Virginia, in April 2014, in which one car derailed, was 
punctured, and fell into the James River. The resulting crude 
oil-fed fire burned for several hours.
    We are participating in the investigation of the Mount 
Carbon, West Virginia, accident in February 2015, and have 
collected information about the Galena, Illinois, accident in 
March 2015, and two accidents in Ontario, Canada, in February 
and March 2015. These accidents involve breaches to 1232 tank 
cars that resulted in fires that compromised more than 20 
additional tank cars, leading to violent fireball eruptions.
    As demonstrated in these accidents, no less than six major 
derailments in only 16 months, we believe that the DOT-111 and 
the CPC-1232 tank cars are not adequate for transporting 
flammable liquids. Just last week, we issued four urgent 
recommendations to PHMSA to address these concerns. These 
recommendations ask PHMSA to, first, require thermal protection 
for cars transporting flammable liquid products such as ethanol 
and crude oil. Second, require appropriately sized pressure 
relief devices. Third, require an aggressive retrofit or 
replacement schedule of DOT-111 and CPC-1232 tank cars with 
interim mileposts. And, fourth, establish a publicly available 
reporting mechanism, such as the DOT Web site, to monitor the 
retrofitting or replacement of these tank cars.
    We hope that the ongoing rulemaking process will consider 
these recommendations. In all these accidents, the first 
defense is to ensure the integrity of the operation, including 
the track and the train cars. We have issued a number of 
recommendations regarding track inspections.
    We have also been concerned about the lack of information 
that is available to our first responders who must respond to a 
hazardous material release. Since 2007 we have asked the FRA 
and PHMSA to require rail operators who transport hazardous 
materials to provide more information to the communities 
through which they travel. Much of this information can be 
electronically transmitted to responders in the field. But in 
most accidents we have investigated, firefighters tell us that 
they had no idea that such products were traveling through 
their towns.
    Recognizing that you convened this hearing to address 
issues beyond the carriage of crude-by-rail, I would also like 
to highlight a few other transportation issues that remain 
important to us, as more fully discussed in my written 
statement.
    Implementation of Positive Train Control by the end of this 
year, as required by statute. We know that humans make 
mistakes, and Positive Train Control can step in when humans do 
make mistakes. It can prevent accidents and save lives.
    Improving medical fitness for duty. In the rail industry, 
operators who are responsible for transporting hundreds of 
passengers or more than 100 carloads of hazardous materials on 
a single train, only have to pass a hearing and vision test. 
Screening for sleep disorders and other medical conditions 
should also be required.
    Ensuring the safe carriage of hazardous materials by 
airplanes. This must include safe stowage of lithium batteries.
    Improving pipeline integrity management oversight by PHMSA. 
This must ensure that correct information is evaluated so that 
it can be an effective risk-based system.
    I appreciate your inviting the NTSB to testify today, and I 
look forward to responding to your questions.
    Mr. Denham. Thank you, Mr. Hart. I will now recognize each 
Member for 5 minutes. Let me start on a couple of process 
questions.
    Ms. Feinberg and Mr. Butters, while, again, I would express 
this committee has--many Members have felt that you have both 
been great communicators, and you have been available for 
meetings and been very accessible, I think that our concern--
which has been voiced by many Members--is with the 
administration, the administration that has taken far too long 
on rules, an administration that has taken far too long on 
making sure that we have appointments that are moving forward.
    This is a--you guys--out of the five Department of 
Transportation positions that are--have Acting Administrators, 
these two are critical to the safety of our country, in making 
sure that we are having goods and people movement--we need to 
make sure that we are not only vetting those new positions 
through the legislative branch, but we need to make sure that 
we are also discussing those rules and the implementation of 
them, as well as the long wait times to actually bring them 
back before Congress.
    So, let me start with a couple of process questions to each 
of you. Do you each want to be nominated as a full-time 
Administrator? Are you currently being vetted for nomination as 
full-time Administrators? And can you tell me when your 210-day 
temporary term as Acting Administrator is up?
    Ms. Feinberg. I am happy to go first. Thank you for the 
question. I would be--started in this role on January 11th. I 
don't know the actual day that the 210 days expires, but it 
would be 210 days after January 11th.
    I do want to continue to stay in this role. I will leave it 
to the White House to make any personnel decisions and 
announcements.
    Mr. Denham. Mr. Butters?
    Mr. Butters. Thank you, Mr. Chairman. My appointment as--I 
have been serving as a Deputy Administrator since November of 
2010. My appointment as Acting Administrator began October 5th 
of last year. I don't know the exact date of the 210-day 
period, but it is--it will be coming up fairly soon.
    And I--along with Administrator Feinberg, I defer to the 
White House, in terms of determining how they want to proceed, 
in terms of filling this position permanently.
    Mr. Denham. Have you started the vetting process?
    Mr. Butters. I have not.
    Mr. Denham. Ms. Feinberg?
    Ms. Feinberg. I have not.
    Mr. Denham. Thank you. Ms. Feinberg, in Politico it was 
quoted--you were quoted as saying, ``We are running out of 
things that I can--we are running out of things that I think we 
can ask the railroads to do.'' Would you like to clarify that 
statement?
    Ms. Feinberg. Sure. Thank you for the question. Actually, I 
believe Politico quoted me accurately. It was some individuals 
in the energy industry who then followed up and quoted me 
somewhat inaccurately--or selectively, I would say.
    What I said was, ``We are running out of things we can ask 
the railroads to do. They have gone above and beyond what we 
have asked them to do. That said, we will continually ask them 
to do more to improve safety.'' This was in reference to the 
various actions that we have taken while we have been working 
on the crude-by-rail rulemaking. We have taken, I believe, 24 
interim safety measures. We have issued emergency orders, we 
have issued safety advisories, we have come to voluntary 
agreements with the railroads to increase inspections, 
implement speed restrictions, implement braking systems. And 
that is what I was referring to.
    Mr. Denham. Thank you. And in Modesto one of the questions 
that came up amongst many others was actually keeping trains on 
the tracks. Are there new technologies available that could do 
a better job of identifying track integrity problems?
    Ms. Feinberg. There are. The ATIP is the--what we have 
found to be the most effective new technology. This is a system 
that moves along the rails, and the track, and does, for lack 
of a better term, an x ray of the track. We have asked for 
additional funding in our budget to expand that program.
    Mr. Denham. Have you prepared an inventory of different 
technologies that are out there, so that----
    Ms. Feinberg. I believe that we have an inventory of 
different technologies that are out there. I don't have it on 
hand, but we would be happy to come back to your committee and 
provide it.
    Mr. Denham. Thank you. And which have you tested already?
    Ms. Feinberg. I am sorry?
    Mr. Denham. Have you tested any of them already?
    Ms. Feinberg. I believe some have, but we can come back to 
you with what has been tested and what hasn't.
    Mr. Denham. Thank you.
    Ms. Feinberg. Many items--I am sorry. Many items have been 
tested outside of the FRA, as well. We can provide you with 
that, too.
    Mr. Denham. Thank you. My time has expired. Mr. Capuano.
    Mr. Capuano. Pass to Mr. DeFazio.
    Mr. DeFazio. No, go ahead. OK. Thank you. Thank you, Mr. 
Chairman.
    To Mr. Butters, the--on pipelines, one of the mandates from 
the 2011 Act was to deal with shutoff valves. And my 
understanding is that you sort of bifurcated the process, and 
you adopted a number of rules looking--or two different rules, 
one looking at shutoff valves and other issues that would go to 
liquids, and one that would go to gas.
    And it is my understanding, further, that, I guess, the--
let's see, I am getting them confused, but I think the liquids 
went to OMB in May 2014. Is that the one that went to OMB? And 
then one of them is sitting on the Secretary's desk. How long 
has it been sitting on the Secretary's desk? And when might we 
expect OMB to regurgitate the rule?
    Mr. Butters. Congressman, the gas safety rule is currently 
within DOT. We are working with our--with DOT to address 
questions. We are working vigorously to get that rule wrapped 
up and get it over to OMB. I can't give you an exact date, but 
rest assured this is a high priority, and we are working with 
them daily to address some of their issues that they have 
raised, as we conduct the cost-benefit analysis, et cetera.
    The liquid safety rule is currently at OMB. We have been, 
again, working with them closely, and I believe we are very 
close to having that rule out. But, again, I can't provide you 
with any specific date at this point.
    Mr. DeFazio. OK. And Chairman Hart, I just want--after we 
chatted about your new recommendations on the tank cars, I did 
talk to OMB yesterday, to Mr. Shelanski, and he said you can 
call him any time and express your concerns. I did express them 
for you, and he, of course, is totally opaque, but we are going 
to have something soon, and we are going to be pleased with it. 
So----
    Mr. Hart. Thank you very much.
    Mr. DeFazio. I hope that makes you feel good. It doesn't 
make me feel good. I think we need to change the way OMB works. 
A little more transparency, and perhaps some timelines would be 
useful, particularly on things that are considered a very high 
priority. That is not an issue at today's hearing.
    Lithium batteries. Chairman Hart, how do you feel about 
lithium batteries on airplanes? You have some concerns that 
Congress has said we can't go beyond the ICAO cardboard box 
standard?
    Mr. Hart. Thank you for that question. Yes, we do have 
concerns. We have viewed ourselves as a world leader in 
aviation, and oftentimes we go beyond what ICAO, the 
International Civil Aviation Organization, requires. A most 
recent example is that we require a second person in the 
cockpit when one of the pilots leaves. That is not an ICAO 
requirement, and it is not a world requirement. That is just an 
example of where we want to view ourselves as world leaders, to 
push the bar, to move the bar on safety.
    Mr. DeFazio. But Congress saying we can't exceed 
international standards, you think that is a problem, and 
Congress should lift that prohibition?
    Mr. Hart. We are concerned about the United States being 
limited to what ICAO does, yes.
    Mr. DeFazio. Administrator Butters, would you feel that we 
should go beyond the ICAO standard on--and Congress should lift 
the prohibition so people can review the transport of lithium 
batteries on aircraft, particularly passenger aircraft, where 
people are sitting above it, and they don't even know it?
    Mr. Butters. We agree that the limitation to the ICAO 
technical instructions is a problem. Lithium batteries do pose 
transportation hazards, and the ability for the U.S. to 
promulgate more stringent safety regulations is something that 
we are certainly interested in doing.
    Mr. DeFazio. My understanding is there has been some 
dispute over this issue over the years, and this is one of 
particular concern to me. It is only a matter of time until we 
lose another plane. We have lost a couple of cargo planes. 
Could be a passenger plane, a combi carrier, it could be 
another cargo plane.
    So, you know, the FAA feels they have the expertise. There 
was a dispute a number of years ago, and the FAA prevailed, and 
they were sent to ICAO. They don't seem to have been able to 
move ICAO. My understanding is that person is retiring, and now 
we are back into a discussion of who would better represent the 
views of the DOT for more stringent standards. Do you think 
that PHMSA would push for regulations beyond the ICAO standard, 
if you were the representing----
    Mr. Butters. Well, the dangerous goods panel, which we and 
FAA participate on--we work very closely with our colleagues at 
FAA as related to transportation of hazardous materials and 
dangerous goods by air--we would want to have the most 
effective and knowledgeable representative in that seat. But I 
think the important thing to understand is that, as DOT, we 
work with each other, FAA, as well as--as it relates to 
dangerous goods in transportation, our other modal partners, to 
make sure that these hazmat regulations and danger goods regs 
are as stringent and strong as possible.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. DeFazio.
    Mr. Barletta, you are recognized for 5 minutes.
    Mr. Barletta. Thanks. Thank you, Mr. Chairman. I think we 
all agree that, in discussions about crude-by-rail and rail 
safety in general, track maintenance is absolutely critical.
    Now, the Class I railroads, they have better access to 
capital to be able to finance their investment in track 
maintenance. And the smaller railroads, like the many short 
lines that operate in my district, do not have the same access 
to capital.
    Administrator Feinberg, based on your Web site, FRA has not 
approved the short line railroad RRIF loan in over 3 years. As 
I understand it, helping short lines rehabilitate their track 
was one of the primary purposes of this program. Why isn't it 
working?
    Ms. Feinberg. Thank you for the question. It is good to see 
you again.
    We are actively working to make the RRIF program much more 
accessible to applicants. So, in particular to short lines, as 
we have looked at the program, particularly over the last 
several months, and under the guidance of Secretary Foxx, we 
would like to be more creative, and make the program much more 
accessible to all applicants, including short lines.
    Mr. Barletta. How many short line applications are 
currently being processed?
    Ms. Feinberg. I don't know the exact number. We can get 
back to you. I know that there are several pending.
    Mr. Barletta. And also, if you could, see how long they 
have been in the application process, as well.
    Ms. Feinberg. Absolutely.
    Mr. Barletta. You and your agency have publicly stated that 
most railroads will be unable to meet the December 31, 2015, 
deadline to implement Positive Train Control. Do you plan on 
fining railroads that do not have PTC systems implemented after 
that date, if the current law does not change?
    Ms. Feinberg. We are in--having internal discussions now, 
and also discussions with members of this committee and other 
Members of Congress about how to proceed. You are right, the 
PTC deadline, the congressionally mandated deadline, is 
December of 2015. Most railroads--in fact, I think all 
railroads--have said that they do not believe that they can 
meet that deadline. We believe that there is a path forward 
that involves meeting with railroads, granting provisional 
authority as PTC starts to come online. But we are in the 
middle of those discussions now.
    Mr. Barletta. You have recently called on the energy 
industry to do more to control the volatility of its cargo. You 
may have seen a recent report from the Department of Energy 
where the agency found no data showing a correlation between 
crude oil properties and the likelihood or severity of a fire 
caused by a derailment.
    Furthermore, a white paper from FRA stated using vapor 
pressure as a metric to identify potential hazards may not 
prove effective when considering real-world accident 
conditions. Do you agree with your own agency's reports?
    Ms. Feinberg. I think what both of those items, both of 
those papers, show us is what a complicated issue this is. The 
DOE report was very specific about how there is no single 
component that tends to lead to an incident being worse than 
another component. The white paper from FRA talked about crude 
and ethanol both being very dangerous flammable products that 
are risky to transport by rail.
    The issue is we need more industries and more people 
involved in this conversation, and more industries with skin in 
the game. If the DOE and other agencies want to continue to 
investigate volatility and an appropriate decrease in 
volatility, and what that could lead to, in terms of safety, we 
are supportive of that, and we are working closely with them. 
The point is that this can't just be on one industry, or just 
one agency, to regulate and to bring--and to make this product, 
the transfer of this product, safer. This is something that 
should be governmentwide, and that we should have more 
industries involved in.
    Mr. Barletta. Thank you. Thank you for testifying.
    Ms. Feinberg. Thank you.
    Mr. Barletta. Yield back the balance of my time, Mr. 
Chairman.
    Mr. Denham. Thank you, Mr. Barletta.
    Mr. Lipinski, recognized for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Ms. Feinberg, as you know, Metra is important in my 
district, in the Chicago region, and you had just mentioned 
PTC, so I just wanted to again bring up the fact how difficult 
it is for--especially commuter rail--to have the funds 
necessary to put PTC in. And I know Metra is looking at the 
RRIF program for that, and I think it is something that we have 
talked about. Like to see more of a focus on that, and it would 
be great if you can come to Chicago some time, in the suburbs, 
to get a tour and see some of the great capital needs that 
Metra has. I appreciate if you could do that at some time.
    Ms. Feinberg. I would be happy to. I would be happy to.
    Mr. Lipinski. I want to focus first on rail safety. And, 
Mr. Butters, I live in a district that has, I often claim, more 
rail lines than any other district in the country. No one has 
come forward and disputed that, and so I still will claim that. 
But I know how--you know, I have oil trains moving through my 
district. In fact, moving less than a mile from my home. And so 
it is critically important to me, too, that we focus on safety.
    I wanted to--since we already touched on the tank cars, I 
wanted to talk about the HM-ACCESS [Hazardous Materials 
Automated Cargo Communications for Efficient and Safe 
Shipments] program, which is moving forward, and you expect to 
report on results of the pilot program by October of 2015, I 
understand. Is that correct?
    Mr. Butters. Yes, sir. That is correct.
    Mr. Lipinski. And this is essential technology for our 
first responders. And I am very interested in making sure that 
we move forward so the first responder doesn't have to board a 
locomotive to find the manifest in the case of an emergency.
    So, this Congress I introduced a bill to establish a 
working group that would devise a voluntary standard. And I am 
looking forward to PHMSA's report in the fall. Given that the 
Association of American Railroads and UPS are moving forward 
with their own forms of electronic shipping papers, I am 
wondering if you plan to incorporate their experiences in the 
report into any recommendations found in that report.
    Mr. Butters. Thank you, sir, for that question. And the 
answer is we will certainly take a look at that.
    And, as you may know, as an emergency responder myself, a 
former fire chief and chairman of the Hazardous Materials 
Committee for the International Association of Fire Chiefs, the 
whole notion of electronic shipping papers and electronic 
information to emergency responders is something that I have 
been--had high on my priority list back in the days when I 
chaired that committee.
    So, we believe that those systems are critical. There is no 
sense in exposing emergency responders to delay or any excess 
risk by having to retrieve documents out of a locomotive, out 
of a cab of a vehicle, or anything else, particularly now, when 
most of these documents exist electronically at some point.
    We are in the midst of the HM-ACCESS program, which is 
pilot testing the feasibility. We also are aware that the 
railroad, through a number of different systems, operations--
respond through CSX and others, are also making this 
information available. I can assure--I can tell you that, as an 
emergency responder, I don't want to try to have to figure out, 
by carrier, how to get to their data. Having a consistent, 
seamless system is what we are going to be looking to do. And 
where we can marry those platforms together so that emergency 
responders really can--have to go to either one app or one 
place to get this information quickly, that is our goal.
    Mr. Lipinski. Great. I want to move on in my last minute to 
pipeline leak detection. Also have a tremendous number of 
pipelines running through my district.
    I know in October 18, 2010, PHMSA published the advanced 
notice of proposed rulemaking on the safety of onshore 
hazardous liquid pipelines. I think we touched a little bit on 
that already. PHMSA expressed its intent to strengthen 
requirements for pipeline leak detection, emergency shutoff 
valves, and protecting high consequence areas. I understand 
that PHMSA has completed a proposed rule, but 4\1/2\ years 
after the initial notice, the proposal is stuck at OMB. Ranking 
Member DeFazio had touched on this.
    Now, I just wanted to ask, while we wait on that rule, I am 
interested what else can be done for leak detection purposes, 
and has PHMSA considered working with the FAA and private 
stakeholders to use unmanned aerial systems to help with 
monitoring?
    Mr. Butters. Thank you for that question. Through our R&D 
program, we have been very active in developing and funding to 
operationalize new technologies to address those very issues. 
So, the answer is yes, we are working with the industry, 
encouraging them to adopt and implement technologies out there 
now that can be operationalized to help improve leak detection 
and reduce the risk of pipeline, and better understand what 
those risks are.
    Mr. Lipinski. In terms of UAS?
    Mr. Butters. The unmanned aerial systems is a technology 
that we have actually funded a couple of years ago. A number of 
industries are now taking another look at that. I believe it 
shows great promise, by--able to put sensing technology under 
these devices to better detect leaks along pipeline systems, 
and a number of pipeline operators are utilizing this--that 
technology, as well.
    Mr. Lipinski. Thank you.
    Mr. Denham. Thank you, Mr. Lipinski.
    Mr. Mica?
    Mr. Mica. Thank you, Mr. Chairman. Thank you for holding 
this hearing. And it is important. You know, we passed PRIIA 
authorization and had a number of items in there relating to 
safety and trying to improve our freight rail system, passenger 
rail system. That was 2008, and we are working on the 
reauthorization.
    The pipeline bill just reminded me today when Mr. Ranking 
Member had said it was 2011 and had Mr. Shuster do that bill 
back then as a committee bill. That is 4 years ago, and not 
much has been done.
    One of the things that concerns me, it takes a long time to 
retrofit some of the equipment. Since President Obama has 
vetoed the pipeline bill, and we had safety measures in the 
pipeline bill on which we still haven't had action by the 
administration, but since the veto of that I have seen at least 
two horrible incidents of accidents transporting crude. And 
it--we have lost 4 years now. It is going to take some years to 
retrofit.
    Let me ask Mr. Butters. The amount of time it would 
retrofit--take to retrofit cars--I understand your rule would 
propose that car standards would affect 66,000 cars, 
approximately. Where are we in that process now?
    Mr. Butters. Well, as we have mentioned, the final rule is 
currently at OMB. Part of that provision does and will address 
not only new car specifications, but retrofit specifications. 
As you know, there are a number of varieties, if you will, of 
the DOT-111 car, the legacy car, which poses the highest risk 
in their other----
    Mr. Mica. So there is actually--no cars have been 
retrofitted, because there is no rule in place, or no cars 
under a rule, since there is no rule. Is that correct?
    Mr. Butters. There is no--the new specification has not 
been published yet----
    Mr. Mica. So of old cars, how many do you think were 
retrofitted by the industry?
    Mr. Butters. I don't have the exact number. I certainly can 
provide that to you.
    Mr. Mica. I mean are we looking at dozens? Hundreds?
    Mr. Butters. Thousands.
    Mr. Mica. Thousands? By the industry? And they still--and, 
potentially, you could affect as many as 124,000 cars. Is that 
correct?
    Mr. Butters. I don't know the exact number, but I will take 
your point there on that number----
    Mr. Mica. The industry estimates it is going to take 10 
years to retrofit the 124,000 cars that are affected. How many 
cars are they producing a year, new ones?
    Mr. Butters. I don't know the exact number. I can provide 
that to----
    [The information provided by the Pipeline and Hazardous 
Materials Safety Administration can be found on page 156.]
    Mr. Mica. Can you guess? One thousand, two thousand, 
somebody? There is a lot of highly paid staff there for backup.
    Ms. Feinberg. I think he just looked at me for backup. 
Thousands are produced each year, you are correct----
    Mr. Mica. And they are produced to what you would consider 
your proposed rule standard.
    Ms. Feinberg. Well, right now----
    Mr. Mica. Going to be----
    Ms. Feinberg [continuing]. Most of the backlog of new cars 
is jacketed 1232s. So that would be the standard the industry 
came up with several years ago, plus a jacket. The new standard 
is what is included in the rule, which should be finalized in 
the coming weeks.
    Mr. Mica. OK.
    Ms. Feinberg. And then there will be a retrofit schedule in 
that rule.
    Mr. Mica. Unless you are, again, on another planet, there 
have been a lot of incidents in which you have had these 
railcars derail for whatever reason, explosions, loss of 
property, life, whatever.
    Mr. Hart, is--are you aware of additional inspections since 
now we are moving so much of this crude that is going on? What 
do you see--you have to investigate some of these instances. Is 
the Department doing an adequate job? Should we be doing more? 
They don't have a rule in place, and it sounds like it could be 
years, 10 years, before they can get these cars retrofitted at 
the rate we are going.
    Mr. Hart. Thank you for the question. Of course, the 
retrofit is just part of the total solution. We also want to 
keep the train on the track in the first place, and then have 
informed emergency responders.
    But regarding the retrofit, we are encouraged to see the 
industry move ahead of the rule, because it is obviously risky, 
to use a new car and not know if that car will comply with the 
rule when it comes out.
    We are also encouraged by an experience about 20 years ago, 
when the retrofit of DOT-112 tank cars occurred, and they 
managed to do that in a much shorter timeframe than the 10-year 
retrofit we are talking about. We don't think 10 years is 
realistic. We think it can be done much sooner----
    Mr. Mica. But, again, my question--you are the inspector. 
You see this afterwards. Is there more--are there more safety 
inspections now--we have more crude moving. What do you see? 
You are the expert.
    Mr. Hart. We see activity in all three of the fronts 
regarding keeping the train on the track, regarding more robust 
cars, and regarding informing first responders.
    Mr. Mica. So there is some positive----
    Mr. Hart. There is some positive movement in all three 
fronts, yes.
    Mr. Mica. Thank you.
    Mr. Denham. Thank you, Mr. Mica.
    Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman. I want to go back to 
the RRIF loan program.
    Administrator Feinberg, my question--and I don't understand 
what is the problem. It was--it has been a problem with the 
past administration, and it is a problem with this 
administration. We have had numerous hearings, bipartisan. We 
want the RRIF loan program to work. What is the problem?
    I mean, in Florida we have the All Aboard Florida pending, 
been pending for months. We have had hearings where we have 
brought in individuals that have applied for a loan. It is very 
expensive. What is it we, as a Congress, need to do to get--I 
mean billions of dollars, authority, but no programs going out 
the door.
    Ms. Feinberg. So we would--we agree with you. Secretary 
Foxx has said that it is his goal that all of the money in the 
RRIF program should be loaned out by the time his term is over. 
I----
    Ms. Brown. How much money is in the program?
    Ms. Feinberg. About $35 billion.
    Ms. Brown. $35 billion?
    Ms. Feinberg. Yes, ma'am.
    Ms. Brown. That would put a lot of people to work, and move 
the communities.
    Ms. Feinberg. We agree. We are--we have several loan 
applications that are pending now. We are working through those 
as quickly as possible.
    I think, in the past, there has been a high bar that 
applications--that applicants need to reach in order to ensure 
that taxpayers will be paid back for those loans. Absolutely 
agree that taxpayers have to be paid back for those loans. I 
think the impetus is on us to make sure that we are working 
closely with applicants, so that they have access to those 
loans and to that amount of money, but also ensure that 
taxpayers will get paid back.
    Ms. Brown. Well, we all agree with that. But it just seems 
as if it is some problem, that we don't want to do these 
particular types of loans.
    Ms. Feinberg. We do want to do the loans. In particular, it 
has been a huge focus of mine for the last several months, and 
of Secretary Foxx's for the last year. I think, in the past, 
another issue that has--short lines, in particular, have run 
into is that they have--they are probably more in need of the 
loan than other railroads, yet it is very difficult for them to 
reach the credit risk premium level. And that is why we are 
trying so hard to work with them.
    And I would add that, in the GROW AMERICA Act, which we 
have sent to the Congress, we have some suggested tweaks to the 
program that might assist short lines in getting these loans.
    Ms. Brown. Well, we are definitely looking for what we can 
do to help the short lines be able to participate in the 
program.
    Mr. Butters, what is the problem with the pipeline 
regulations? You know, there are some commonsense tweaks, 
things that need to happen. Why is it not moving forward?
    Mr. Butters. Thank you, Congresswoman. We are placing a 
very high priority on both the liquid and gas rulemaking. The 
liquid rule is currently at OMB, and we are working through 
that process as quickly as we can.
    As you know, we--there is a process that we have to follow 
with any rulemaking. And the gas rule is currently still within 
the Department of Transportation. And we are--got full-court 
press to try to get that rule out, as well. We are very 
cognizant of the urgency of both these rules, and we are 
working through these issues as quickly as we can.
    Ms. Brown. Is it anything we in Congress can do? Because we 
are very concerned about the problems that are out in the 
community, making sure that the communication is there, that 
all of our stakeholders know what is in the containers. I 
mean--so it is a team effort. Is there anything we can do to 
expedite it so people know exactly what is the rule and what 
they need to do?
    Mr. Butters. Well, as you know, we are bound by the 
process. And I know that is frustrating for many, that it takes 
a long time. I can't really advise on what Congress can do to 
expedite that. All I can say is that we are working as quickly 
on all fronts on all of these regulations to get them through. 
We know how important they are to the safety of pipelines, the 
safety of rail transport, flammable liquids. And, again, we are 
vigorously working on these, and trying to get them out 
quickly.
    They are complicated rules. There are a lot of moving parts 
to them. Developing cost-benefit analysis based on historical 
risk is often a challenge. But we are working with our 
colleagues to try to get these things through.
    Ms. Brown. Thank you. And I want you to know failure is not 
an option. This is something that we got to get done quickly. 
Thank you. I yield back the balance of my time.
    Mr. Denham. Thank you, Ms. Brown.
    Mr. Rice?
    Mr. Rice. Thank you, Mr. Chairman, and thank you to the 
members of the panel for being here today. I have learned a 
lot.
    I want to start with you, Mr. Hart. Is it safer to 
transport flammable liquids by pipeline or by rail?
    Mr. Hart. Thank you for the question. We are asked that a 
lot, but it is actually difficult to make cross-modal 
comparisons. People ask me, ``Is it safer to drive than fly?'' 
And there are lots of ways you can do the statistics. You can 
come up with either answer. It is really apples and oranges, 
and it is very difficult to compare and say one is safer than 
the other.
    Mr. Rice. All right. The trend in traffic by rail, is rail 
traffic increasing, decreasing? Is it stable?
    Mr. Hart. I can't speak to general rail traffic. What we 
are most focused on is rail traffic of ethanol and crude, those 
two substances. Ethanol has gone up at least by a factor of 
four in the last several years. Crude oil has gone up a factor 
of 40 in the last 5 or 10 years.
    Mr. Rice. Ms. Feinberg, is general rail traffic increasing, 
decreasing, stable?
    Ms. Feinberg. Increasing.
    Mr. Rice. How much?
    Ms. Feinberg. I don't know the actual percentage, but it--
--
    Mr. Rice. Has it doubled in the last 10 years?
    Ms. Feinberg. Crude and ethanol, certainly. But just 
general----
    Mr. Rice. Just general----
    Ms. Feinberg. Just general trains on the tracks, I don't 
know if it has doubled. I would doubt it.
    Mr. Rice. All right. Tell me about the trend in--well, 
first of all, the status of the rail infrastructure. Are the 
tracks generally--are they getting better? Are they getting 
worse? Are they in desperate need of repair? Are they--is 
industry reinvesting enough? What is your opinion?
    Ms. Feinberg. The track--the rail infrastructure is 
generally burdened by significant congestion. The rail industry 
has said that they are investing multiple, multiple billions of 
dollars in fixing, repairing, replacing track, generally.
    Mr. Rice. They say it? Do you not know? Are they doing 
that? Or you say----
    Ms. Feinberg. No, no, no. I am sorry. They are doing it, 
and they have also said that in the coming year they will 
reinvest X billions----
    Mr. Rice. So you think the status of the existing rail 
infrastructure is adequate?
    Ms. Feinberg. No, I don't. I think that it is burdened, and 
needs significant attention and repair. I was just answering 
that the rail industry has said that they are going to reinvest 
in it.
    Mr. Rice. OK, all right. How about the trend in accidents 
on rail? Is it--are we seeing more and more accidents? Are we 
seeing more and more lives lost? Or is the trend in accidents 
improving?
    Ms. Feinberg. The trend in accidents is generally 
improving. The 2014 accidents were actually down. I think, in 
terms of grade crossing incidents, we are actually seeing those 
tick up a little bit in the last year or so. But of course, the 
rail accidents that we are seeing have been dramatic and 
attention-getting, because they tend to involve crude and 
large----
    Mr. Rice. OK. So, despite the dramatic increase in 
flammable liquids on rail--and you say 40-fold--and despite the 
fact that general rail traffic has increased significantly in 
the last 10 years, we are still seeing a decline in accidents?
    Ms. Feinberg. Yes, sir.
    Mr. Rice. To what do you attribute that?
    Ms. Feinberg. Increased inspections, increased safety 
measures.
    Mr. Rice. OK. Mr. Butters, tell me about the trend in 
pipeline volume. Is the volume in pipelines increasing? Is it 
stable? Is it decreasing? Tell me about that.
    Mr. Butters. Well, more pipelines are being built every 
year, both on the transmission side, as well as gathering 
production lines. So that is increasing, particularly in light 
of the energy renaissance that we are experiencing with shale, 
oil, and gas production. It is growing rather significantly.
    Mr. Rice. Mr. Butters, do you have an opinion on the safety 
of transmission of flammable liquids, pipeline versus railroad?
    Mr. Butters. Well, I agree with Mr. Hart, they are both 
safe modes of transportation. Our role is to ensure that those 
hazardous materials, whether--regardless of the mode that they 
are transported on, are done in a safe way.
    Mr. Rice. That was a really good nonanswer. Pipeline versus 
railroad.
    Mr. Butters. Again, it--two separate modes. Both of them 
are----
    Mr. Rice. Which one is safer, in your opinion, pipeline or 
railroad?
    Mr. Butters. They are--both have demonstrated strong safety 
records.
    Mr. Rice. You said that you were trying to hire 120 people 
earlier, right? And you hoped to have that done by the end of 
the year. How many people work for you? How many people work 
at--what is the name of the----
    Mr. Butters. PHMSA, the Pipeline and Hazardous Materials 
Safety Administration. We have slightly shy of 500 staff, both 
here in headquarters, as well as in our 10 field offices.
    Mr. Rice. How long have you been trying to hire 120 people?
    Mr. Butters. Well, we were authorized in December of this 
year, so we have been working pretty vigorously since December. 
We have hired about 30 percent of those vacancies. We had 
about, on a pipeline program, 145 positions, and nearly all of 
those have been filled.
    Mr. Rice. I have one last question, and then I will shut 
up.
    You said you have very high priority on liquid and gas 
rulemaking for pipelines, very high priority.
    Mr. Butters. Yes.
    Mr. Rice. How long you been working on that with very high 
priority?
    Mr. Butters. We have been working on those for several 
years.
    Mr. Rice. What--how long does it take for something with 
low priority?
    Mr. Butters. Pardon me?
    Mr. Denham. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. I know that over the 
next year the railroad industry has said they are going to 
invest $29 billion: $13 billion in repair and $16 billion in 
new capital. Some time last week, Burlington Northern Santa Fe 
notified its customers of some operational changes that they 
are going to make, including reducing speeds on key trains from 
50 to 35 in heavily populated areas, increasing track 
inspections, eliminating the use of DOT-111 cars from service 
within 1 year, and unjacketed 1232s within 3 years, and 
decreasing the threshold on wayside detectors to increase 
detection and removal of defective railcars.
    So, the question is--and it is not to trumpet BNSF 
necessarily, but if BNSF is doing it, why can't other railroads 
do this? Why can't PHMSA mandate that kind of aggressive 
action, as well? And is that what we expect to see? And this 
would be for FRA, as well.
    Ms. Feinberg. Sorry. We know about BNSF's recent 
announcements. We are supportive of them. Not all railroads are 
functioning the same geographic area, functioning with the same 
kind of traffic, and carrying the same kind of product, so 
there are differences of opinion in the rail industry about 
those. But we are hugely supportive of the recent announcements 
they have made, and I believe they make a lot of sense.
    Mr. Larsen. Yes, that is fair. That is fair. So, for Ms. 
Feinberg, the Association of Washington Cities approached me 
with a proposal for improvements at at-grade crossings. We are 
going to work on some legislative language, see if we can get 
that in our--in the surface bill.
    But FRA has looked at at-grade crossing improvements, as 
well. Can you cover a little bit about how you define at-grade 
crossing improvements, and what that might mean for safety?
    Ms. Feinberg. Sure. So the first thing that we try to 
remind people of is that the safest crossing is no grade 
crossing at all. It would actually be the rail being completely 
separated from pedestrians and from vehicular traffic.
    Because of recent incidents--the Metro-North incident, the 
Amtrak incident, and the Metrolink incident--we have taken a 
fresh look at grade crossing safety, generally. This is a very 
old problem, but one we think deserves some fresh thinking. So 
we have announced that we are implementing an enhanced campaign 
to improve safety at crossings. We have started with the 
partnership with law enforcement to increase enforcement at 
crossings for those drivers that are trying to actually beat 
the train.
    But that is not the only problem at crossings. We have also 
got an awareness problem, so we are working on that. And we are 
also hoping to announce some new technologies in the coming 
months that would also assist with safety.
    Mr. Larsen. All right. Look forward to that.
    Mr. Butters, how has the Canadian direction on tank car 
design impacted PHMSA's process and rulemaking?
    Mr. Butters. Thank you for that question, sir. We have been 
working very closely with our counterparts in Canada to ensure 
that these safety regulations are harmonized to minimize any 
disruption in cross-border movement. We are hoping that, as we 
approach the finalization of this final rule, we will both be 
able to jointly announce our regulations.
    Mr. Larsen. Is that adding to time, or adding to the delay, 
or is it everything else that is adding to getting this rule 
out in a more timely manner?
    Mr. Butters. Our discussions with Canada have not affected 
how our rule is working through the process here.
    As you know, the Canadian governmental process and the U.S. 
governmental process are--have different gates to go through. 
Canada doesn't have the processes that we go through.
    Mr. Larsen. OK. You mean the excellent process that we 
have.
    Finally, for Mr. Butters, I have a letter from the State of 
Washington Citizens Advisory Committee on Pipeline Safety. It 
is from December 30, 2014. It is actually directed to your 
boss, Anthony Foxx, but it lists six particular rules on 
pipeline safety that they wanted to hear about, what the 
process is.
    You have covered liquid and gas, and there are three 
others. And I don't want to have you answer the question where 
you are on the process for the other four in this setting. Do 
you have this letter? Do you know of this letter?
    Mr. Butters. I believe I--we have seen that letter, and it 
is a--a response is being prepared. But we would be happy to, 
obviously, respond to those specific questions to you directly, 
as well.
    Mr. Larsen. Great. We will follow up with you directly on 
that, to see where PHMSA is on a response. Again, it was 
December 30th, so we are 3-plus months beyond that. And I know 
you are busy on a lot of things, but these are our folks, I 
think the only Governor-appointed citizens advisory committee 
in the country. We created this process as part of the 2002 
Act. And so, hopeful that you can be responsive as quickly as 
possible.
    Mr. Butters. Absolutely.
    Mr. Larsen. Thank you very much.
    Mr. Denham. Mr. Hardy?
    Mr. Hardy. Thank you, Mr. Chairman.
    Ms. Feinberg, Mr. Butters, Mr. Hart, thank you for being 
here. I have read your testimonies, and I have got to be quite 
blunt. I know there is a lot going on. I know that crude rail 
has increased over the last few months. But when it comes to 
rulemaking, I see in here a lot of activity, but I don't see a 
lot of results.
    As a Member of Congress, I know that legislation can be 
slow-moving. But our rulemaking process seems to be far behind. 
A bill was passed back in 2011, the Pipeline Safety, Regulatory 
Certainty, and Job Creation Act. It was enacted in 2012. There 
were 48 mandates from Congress for the agency that bills itself 
on focusing on the safe movement of hazardous materials. Out of 
the 48 mandated, only 23 are completely. Sadly and shocking, 
this act is about to expire in a few months.
    So, let me ask this question. How are we supposed to have a 
comprehensive conversation about this act with less than half 
of the mandates finished? And how can we look to authorize this 
act? Either one of you can answer that.
    Mr. Butters. Well, we are--have been working very 
diligently to address these mandates. Obviously, some of them 
are more complicated and require data and research and--to make 
sure that we are getting them right. That takes time.
    I am not here to apologize for that process, but we are 
very cognizant of the importance of these, and we are working 
through to get them completed as quickly as we can.
    Mr. Hardy. Thank you. And I have also read your testimony. 
I would like to run by a couple of quotes. Mr. Butters, you 
state, ``To date, the Office of Hazardous Material Safety has 
finalized four of the six regulatory actions required under 
MAP-21.'' In another quote you say, ``PHMSA had implemented all 
but one of the mandates from the Pipeline Inspection, 
Protection, Enforcement, and Safety Act of 2006.''
    Ms. Feinberg, you state that ``Rail Safety Improvement Act 
of 2008 mandated that FRA, as the Secretary's designee, 
complete an unprecedented 43 discrete tasks...Today, FRA has 10 
remaining RSIA-mandated, nonperiodic items left to complete.''
    I have one simple question. What is going on with our 
rulemaking? We are looking to reauthorize a very important 
piece of legislation before all the rules. Can you help me walk 
through where the train is running off the tracks, so to speak, 
here?
    Ms. Feinberg. Sure, Mr. Hardy. I mean, to be clear, I think 
that we have a function in the regulatory process that exists. 
And it is not built for speed. I wish that it was. And no one 
is more frustrated by our regulatory process and how long it 
takes than I am on occasion.
    But if we are trying to govern and regulate as quickly as 
we possibly can, the regulatory--the rulemaking process is not 
the way to do it.
    Mr. Hardy. Would you agree that you maybe need to do 
something, then? Because we should be built for speed. We 
should be built for safety. That is the obligation of this 
Congress, to make sure that we implement rules and regulations 
that help make the public safer. That is one of our 
constitutional duties.
    So, can somebody help me tell you--tell me where we are 
going wrong, as a Congress, and where we are going wrong, as 
Administrators?
    Ms. Feinberg. I agree with you 100 percent that we should 
be built for speed, and that we should be able to be more 
efficient when we are trying to make the system safer. But 
there are nine different steps in the U.S. regulatory process, 
and I wish that we could move through them quicker, and in a 
more efficient way. But the reality is that if we want to be 
truly efficient, we would end up regulating by emergency order, 
or the Congress would direct us in certain ways.
    Mr. Butters. Sir, if I might add, the other aspect of this 
is that there are a lot--many of these rules affect a lot of 
stakeholders. And we have to--when we put rules out for 
comment--for example, we got 30,000 comments on the rail rule, 
alone. We have to go through all of those to ensure that we 
understand where each of these stakeholders are coming from, 
and take into consideration how they affect those industries. 
And that does take time.
    Mr. Hardy. I have just a few seconds left, but, you know, 
in the private sector, where I come from, we have to 
communicate with all sides. Is the administration communicating 
with congressional committees on these issues? Are we coming up 
with better mousetraps?
    You know, I have to work with the engineers, the 
architects, every direction that I go, in order to get a 
project done on time. And it is sometimes a challenge, but it 
is done right, it is done safe, and it is done to protect the 
public at the end of the day, in a whole lot more efficient 
time. We need to be--start that communication somewhere. Has 
to--something has to change here.
    Thank you, Mr. Chairman.
    Mr. Denham. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you for being here. You know, I represent an area 
that is very densely populated. You know, just to give you an 
example, Hoboken, New Jersey, is 1 square mile, has about 
51,000 people. And I see in the Wall Street Journal today that 
FEMA, they put the--devised a scenario where they made an 
explosion, and they--they didn't make the explosion, they 
prepared the officials for any kind of accident that happens. 
And they work with the administration of the city of Jersey 
City and surrounding areas.
    I was just wondering, if FEMA comes up with suggestions on 
how to fight an accident like this, do you coordinate with 
FEMA? Do you--do they talk to you and say, ``Look, this may 
be''--as they go through these urban areas, this--``I think 
this regulation may improve us in fighting this accident?''
    Ms. Feinberg. Yes, sir. We coordinate with FEMA regularly, 
also with the NFC, DHS, and the entire apparatus that would 
respond to an incident like that. And in this specific 
instance, we coordinated with FEMA and FRA participated--I 
believe PHMSA did, as well--participated in the exercise.
    The exercise you are referring to was a tabletop exercise 
that would help train and practice responding to a significant 
crude-by-rail incident in a very populated area.
    Mr. Sires. So, if they make a suggestion, you will act on 
it.
    Ms. Feinberg. I am sorry?
    Mr. Sires. If they make a suggestion, you will act on it?
    Ms. Feinberg. Yes, very much. I mean we are not necessarily 
the first responders, but we will coordinate with FEMA to 
ensure that we are assisting.
    Mr. Sires. And the other area of New Jersey is obviously--
there are a lot of pipelines under New Jersey. And a few years 
ago, in Linden, New Jersey, there was a big explosion, 1,500 
people--evacuate. And I know that the railroad industry is 
investing a great deal of money in repairs and capital. I was 
just wondering if the pipeline industry is doing something 
similar.
    Mr. Butters. Well, under Federal regulations--and our 
Federal regulations have to be adopted by States for 
enforcement in those distribution lines, and intrastate lines 
that the State oversees. So there are--there is consistency, in 
terms of pipeline safety, which specifies frequency of 
inspections, how they should be inspected.
    And, again, depending on the age and type of pipeline we 
are talking about, the best way to inspect for safety is using 
internal--what we call pinging devices, in-line inspection 
devices. But some pipelines, because of their age or their--the 
nature of their construction, are not well-suited to those. So 
the operator has to choose other means of inspecting to ensure 
that they are safe. And again, it depends on----
    Mr. Sires. But does the industry do it on their own? You 
know, let's say we have a pipeline that is 50 years old. They 
say, ``Well, this may have to be replaced.'' I mean do they go 
out and do it? Or--because I assume that the railroad industry, 
when they see a track that is not safe, they go out and do it.
    Mr. Butters. Yes, the operator is required--and it is the 
responsibility--again, depending on the pipeline, if it is a--
if it is overseeing or regulated by the State, the State safety 
agency ensures that that operator is complying with those 
regulations. And if it is an interstate transmission line, it 
falls under PHMSA's jurisdiction to ensure those operators are 
doing what they are supposed to be doing. That is why we have 
inspectors out there that--every day they go and either audit 
companies, operators, to look at their inspection records, or 
they do hands-on inspections themselves with those operators.
    Mr. Sires. And I see here that you processed 19,000 special 
permits and approval applications in 2014. And you are 
requesting to charge a fee of $700 to $3,000. What is that 
money going to be used for? Are you going to increase your--you 
know, your--many people, more people, inspectors, and----
    Mr. Butters. Well, there are a couple things that sort of 
address that issue. Some of these special permits can involve a 
complicated analysis that--the fee is intended to help recover 
the cost, to reduce the burden on the taxpayer and, really, the 
requesting organization, the shipper, the producer, would pay 
that fee.
    We are also trying to reduce the number of special permits 
that are necessary, by looking at past practices and where 
special permits have been issued over--you know, year after 
year, that demonstrate a good safety record, by moving those 
into the--into our standard regulations, so that a special 
permit is no longer required, to make the system more 
efficient.
    But the fee is intended to help offset the cost of 
processing these fees. As I said, some of them can be very 
complicated and extensive.
    Mr. Sires. Thank you.
    Thank you, Mr. Chairman.
    Mr. Denham. Mr. Babin?
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman.
    Ms. Feinberg, I have a question for you, first. You have 
recently called on the energy industry ``to do more to control 
the volatility of its cargo.'' You may have seen a recent 
report from the DOE where the agency had found no data showing 
a correlation between crude oil properties and the likelihood 
of severity of a fire caused by a derailment.
    Furthermore, a white paper from the Federal Railroad 
Administration stated ``using vapor pressure as a metric to 
identify potential hazards may not prove effective when 
considering real-world accident conditions.''
    So, I would ask you, are you disagreeing with the findings 
of your own agency and your administration counterparts at the 
Department of Energy?
    Ms. Feinberg. No, sir. I am happy to take that question 
again. The DOE report that recently came out talked about a 
variety of different components that could affect a crude-by-
rail incident: speed, volatility. The point of the report was 
that there is not one single component that can be changed that 
will affect the severity of the fire or the incident.
    We agree with that report, and we are working closely with 
DOE as they do more research to determine what, if any, level 
of volatility would be more useful for the product to come to, 
to increase actual safety. I don't think there is a 
disagreement in the industry or among--or between the agencies 
that decreasing volatility generally makes a product safer.
    In terms of the white paper that came out from FRA, that 
was about flammable materials, and it talked about crude and 
ethanol both being flammable materials that are dangerous in 
incidents when there are derailments.
    Dr. Babin. OK, thank you.
    Ms. Feinberg. Thank you.
    Dr. Babin. I would ask you. Do you think it is safer to 
haul crude by rail or through a pipeline?
    Ms. Feinberg. I am sorry, is that for me?
    Dr. Babin. Yes.
    Ms. Feinberg. Yes, sir. Generally, I think that pipelines 
are safer, because I don't have to be responsible for them. I 
worry a lot more about the product that is being transported by 
rail.
    Dr. Babin. OK. Now, this question is for all three of you. 
If, according to the white paper--have there been any of these 
incidents, of all the incidents that we have had involving the 
movement of crude-by-rail, has crude ever been implicated as 
the causative factor in the accident? Do you know?
    Ms. Feinberg. No, sir. The product itself has not been 
found to be the cause of the actual incident.
    Dr. Babin. OK. Would you like to give an answer to that, or 
do you have the same answer, Mr. Butters?
    Mr. Butters. Yes. The product itself is normally not 
related to the cause of the accident in rail transportation. 
There may be a factor related to pipeline, if the product 
contributes to corrosion, for example, but inspections done 
properly will detect those.
    Dr. Babin. OK. Mr. Hart?
    Mr. Hart. Our experience is the problem is how the railroad 
is operated, the robustness of the cars, and the response by 
the responders, not the content of the tank cars.
    Dr. Babin. OK. Thank you very, very much. Appreciate it.
    I yield back, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Babin.
    Mr. Nolan, recognized for 5 minutes.
    Mr. Nolan. Thank you, Mr. Chairman. I have a couple 
questions for both Mr. Butters and Ms. Feinberg. I will try to 
be brief. And, if you will, too, we should be able to get them 
in.
    My first question is, Mr. Butters, did you feel like you 
have the methods, the technology, to test the material 
integrity of the steel and the tubular goods that are going 
into pipelines around the country?
    Mr. Butters. Are you talking about testing the actual 
material----
    Mr. Nolan. I am not talking about--yes, I am not talking 
about the seams and the lines and brakes, but the actual 
integrity of the steel that is going into that tubular good. 
Quality does vary around the world, I have found. Having done a 
little business in that business----
    Mr. Butters. It--as part of our--on the pipeline side, as--
part of our inspection program is to look at materials of 
construction, and ensure that operators are using----
    Mr. Nolan. Yes, that is not what I am talking about. I am 
talking about the material integrity of the steel that is in 
that pipeline. Not the construction and the weldings and the 
fittings and the bells and all the whistles. I am talking about 
the integrity of the steel.
    Mr. Butters. As part of our inspection process, we do look 
at the materials that are used for pipeline--the pipeline 
themselves, the steel itself.
    Mr. Nolan. And you have the technology to test the quality 
of that steel.
    Mr. Butters. We have the expertise, and we utilize 
available technology to determine the quality of that material, 
yes. That is part of our--in fact, as part of our 
investigations of pipeline accidents, we take the damaged 
segment of the pipeline and send it to a metallurgist to 
determine the causal factors related to the materials----
    Mr. Nolan. And that is after the fact you have an 
inspection prior to an accident or a disaster.
    Mr. Butters. Yes.
    Mr. Nolan. On the material integrity. You have the 
technology, and you have the methods, you have the expertise, 
that you can test the quality of the steel.
    Mr. Butters. Two ways we do that. We--through our own 
inspection, expertise of our inspectors, as well as looking at 
the records of the operator, and what materials they are using 
in those pipelines.
    Mr. Nolan. Well, I am told that, you know, you basically do 
rely on what the producer and the user supplies you, but that 
you do not have the technology to inspect the material 
integrity of that steel. Is that incorrect?
    Mr. Butters. I guess we will have to maybe talk about that 
more specifically, because I am not sure exactly----
    Mr. Nolan. Right, you told me you look at the records of 
the producers and the users. Well, that--I mean that is one 
thing. I mean that is--you know, what do you think they are 
going to tell you?
    Mr. Butters. Well, our inspectors are engineers. And so 
they do have experience in pipeline----
    Mr. Nolan. OK. Well, then, if you have done all this, do 
you find any difference in the material integrity between 
foreign steel and domestic steel?
    Mr. Butters. There are issues associated--yes, there are 
issues associated with the quality of pipelines that operators 
use.
    Mr. Nolan. OK, thank you.
    Ms. Feinberg, with regard to bridges, you know, I come from 
the Land of 10,000 Lakes. Interestingly enough, with regard to 
the Keystone, you know, one of the arguments was--is that--in 
opposition to it was--is if we didn't have the Keystone 
Pipeline, the tar sands fields of Alberta wouldn't be 
developed. Somebody forgot to check, because that horse left 
the barn several years ago, and I have got 21 million barrels 
of oil coming across the border at International Falls from 
that area each year over a 100,000--excuse me--over a 107-year-
old bridge. And, you know, several dozen train loads.
    And, you know, I read these reports in the New York Times 
and other places about all the 100,000 or more bridges. Do you 
have any idea or estimate of how many of these bridges are 
deficient, and what it might take, in terms of cost and 
inspections to get up to speed on this thing before we have a 
disaster?
    The bridge I am talking about, you know, separates the 
Rainy River from the Voyageurs National Park, 107 years old, 21 
million barrels of oil coming--it is a great concern to all of 
us.
    Ms. Feinberg. The bridges themselves tend to be owned by 
the railroads, and the railroads are ultimately accountable to 
make sure that they are safe and have been maintained. FRA has 
a staff of bridge specialists that then audit the bridge--audit 
the safety programs that the railroads have in place to make 
sure that they are maintaining and inspecting their bridges.
    Mr. Nolan. Well, from what I read, I mean, the--yes, there 
is, like, 100,000 bridges, you know, that haven't been 
inspected. The railroads--again, the fox is guarding the 
chicken coop here. You got, like, eight inspectors, I am told. 
I mean each inspector would have to inspect about 10,000, 
12,000 bridges a year.
    Do you have any plans for beefing up, in your own mind, you 
know, what we might be able to do to have a better method of 
checking the territory--the technical capabilities and/or 
deficiencies of these bridges?
    Ms. Feinberg. Well, the reality is that we do not have 
the--we have not been tasked with inspecting all of the bridges 
in the country, the rail bridges in the country. We have been 
tasked with auditing and monitoring the railroad's own 
inspection and maintenance programs.
    We are actively hiring a few additional bridge specialists 
who can act on that, and we are now looking at whether we 
should hire some additional folks on top of that. But for the 
time being, you know, the railroads themselves are actually 
responsible for----
    Mr. Nolan. Yes. You think it is prudent to have the 
railroads responsible for the bridges, as opposed to not having 
some kind of a Federal inspection plan?
    Ms. Feinberg. Well, the railroads tend to own the bridges. 
And if the bridges are not maintained and are crumbling, then 
one would think that it would not be safe for their own cargo 
to be traveling. So I don't know if it is prudent or not. We 
would be more than happy to throw additional resources at this, 
if we can, in our budget.
    Mr. Nolan. Thank you, Ms. Feinberg.
    Mr. Denham. Thank you, Mr. Nolan.
    Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman. I happened to be 
at another hearing, and so most of the questions I would have 
asked have already been asked. But I would like to say a couple 
of things.
    I noticed in Ms. Feinberg's report or statement that it 
said total train accidents have declined by 46 percent over the 
past 10 years. Total derailments declined by 47 percent. Total 
highway rail grade crossing accidents declined by 24 percent. 
There is a story here. Our main concern in this committee, and 
the main concern of each of your agencies, has to be safety.
    But you know, I was--before I went to law school, I got an 
undergraduate degree in journalism, and taught journalism for a 
year. I was a newspaper reporter on a daily newspaper for a 
while. I understand that train accidents and pipeline 
explosions and so forth receive a lot of huge publicity. But 
the real story that should come out of here is that a lot of 
people are doing a real good job here, and that where rail 
transportation was one of the safest forms of transportation 
before 2005. Over the last 10 years it has gotten much safer.
    There is a story that should be told that our pipelines are 
perhaps even safer than the trains. So you know, I wish 
sometimes we could emphasize some good things always, instead 
of always talking about the bad things.
    But I was curious, though. Mr. Mica got into the fact that 
the industry says 124,000 train cars have to be retrofitted or 
replaced. Can any of you tell me how much--Ms. Feinberg or Mr. 
Hart, can you tell me how much it costs per railcar to do this 
retrofitting? Either of you have that figure? I am guessing it 
is fairly expensive, when you multiply it times 124,000.
    Ms. Feinberg. Well, it would depend on what level you are 
starting at. So it would be more expensive to retrofit an 
unjacketed 1232 than it would be to retrofit a jacketed 1232. 
But I have seen various numbers that go anywhere from $3,000 to 
$9,000 to $12,000. That is for a 30-year asset.
    Mr. Butters. We could provide you with that data.
    Mr. Duncan. OK. And how much have the railroads spent thus 
far on the Positive Train Control program? Does--do any of you 
know, have a figure like that?
    Ms. Feinberg. I don't know that number, off the top of my 
head, but billions.
    Mr. Duncan. I have read in the past, or heard in the past, 
that it is very, very expensive, and that we are talking in the 
billions of dollars. But I don't really remember what those 
costs were at this point. None of you know that figure?
    Ms. Feinberg. We can try to compile that number and report 
back to you. But I think we would generally agree that it is in 
the billions.
    Mr. Duncan. We have already talked about the fact that none 
of the trains--none of the railroads are going to be able to 
meet the December 31st deadline. Or there is going to be some 
fudging on it, or something. What realistically are we talking 
about, 2018, 2020, or do we have any idea on that?
    Ms. Feinberg. Well, different railroads are at a--are at 
different stages in the process of implementation.
    Mr. Duncan. Right.
    Ms. Feinberg. So some are quite close, and some have a 
longer way to go.
    What we have proposed thus far, and what we are continuing 
to discuss internally and with Members of Congress is granting 
railroads provisional authority to start to bring PTC online in 
chunks.
    What is important to us is to continue to work closely with 
the railroads to make sure that PTC is being implemented, and 
that progress is being made, rather than a blanket extension 
that would give people--give companies the ability to take the 
next couple of years off without making more progress towards 
implementation.
    Mr. Duncan. I was given a demonstration of that by 
Burlington Northern--BNSF at one point. Of course, even that 
demonstration, though, was a few years ago. So I just was 
curious about that. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Duncan.
    Mrs. Bustos?
    Mrs. Bustos. Thank you, Mr. Chairman. You know, it was 
exactly 1 month and 9 days ago today that there was a train 
derailment in my district. And it was--just to kind of paint a 
picture a little bit, it was in, literally, one of the most 
scenic areas of the State of Illinois, in a town called Galena, 
a small town. There is about 55 to 60 trains that go through 
that community every single day.
    And, in this case, this--the train derailment happened in a 
very remote area. In fact, it took about an hour for the 
workers to get back there. They had to drive on a bike trail. 
And, you know, on one side of it, literally, was a cliff. And 
on the other side was a slough that leads to the Mississippi 
River. The entire western border of my congressional district 
is the Mississippi River, the source of drinking water for 
hundreds of thousands of people in my region.
    And you know, this--it was the Bakken crude that was being 
carried, and there was an explosion. And, literally, I went out 
to the site, and it was yards from the slough that this crude 
oil spilled and puddled. And, you know, you think about what 
could have happened.
    And, Chairman Hart, I know you said in your opening 
statement about the best practice, and how these--what the 
railcars should be, as far as carrying this crude, this 
volatile crude. And, you know, since I think I am dead last 
here, maybe I will just--am I not dead last? Wow.
    Well, so it is probably maybe just a little more 
clarification. I think Mr. Mica was asking some questions and I 
am not sure if I necessarily heard the answer, or maybe the 
answers were cut off before anybody could talk about those. But 
I guess, more than anything, Ms. Feinberg, you had started 
saying that there is going to be a timeline that is released 
here pretty soon for the retrofit schedule.
    Can you talk a little bit more about exactly what we can 
anticipate? Because I would like to be able to go back to the 
community of Galena and say, ``OK, here is what we know about 
this retrofit, here is what we can tell you to maybe give you 
some peace of mind as these 55 to 60 railcars go through every 
single day in our community.''
    Ms. Feinberg. Yes, ma'am. What I was referring to was the 
final rule that is sitting at OMB at the moment that we believe 
will be finalized in the coming weeks. And that rule, though we 
have not seen it in its final form, should contain both the new 
car standard and a retrofit schedule, so what schedule would be 
laid out to retrofit older tank cars to become this more safe 
standard.
    Mrs. Bustos. OK. And can we talk a little bit more about 
the volatility? Again, I know some of these questions have been 
asked, I just don't know if I have a full understanding about 
what can be done. Is there any talk about addressing this 
volatility at the site, before it is loaded in the railcars? Is 
there any movement along those lines?
    And I don't know who the best person is to answer that 
question, but whoever would like to address that--Mr. Butters? 
Thank you.
    Mr. Butters. Yes. As we have mentioned before, we are 
looking--this comprehensive approach looks at everything. And 
looking at the hazardous--I guess physical and chemical 
properties of the product being shipped is one of those.
    We are working with DOE. We recently completed our first 
phase of that work to look at what research has been done. And 
at this point there is not enough science right now to--for us 
to definitely say how this volatility issue plays into this. 
And--but also underscored the fact that the chemical and 
physical properties of this flammable liquid can vary, and it 
can be complicated.
    So, further analysis is really needed to make sure that we 
better understand how volatility, how flammability, boiling 
point, and other hazardous attributes of this product 
contributes to that safety, and what can be done to lower that 
risk.
    But, at the end of the day, it is still going to be a 
flammable liquid. It is a Class 3 flammable liquid that would 
still be classified that way.
    Mrs. Bustos. And, Chairman Hart, because you talked quite a 
bit in your statement about safety, what is the message that I 
can take back to the citizens of the scenic town of Galena, 
Illinois, about rail safety? And what would you like to tell a 
community that has gone through seeing these explosions that 
are very, very dramatic? And thank God there was no loss of 
life, but you know, we are talking about now tens of millions 
of dollars' worth of cleanup that is still going on today.
    Mr. Hart. Thank you for the question. I think the best we 
can say is that we learn lessons with each event. And to your 
question about volatility, our accident investigation 
experience has demonstrated that the primary indications of the 
magnitude of the disaster are going to be the speed of the 
impact, the amount of the release, and the size of the pool 
fire, as opposed to the volatility.
    But to the general question, we learn lessons after every 
event. And that is, for example, why we put out recently some 
four urgent recommendations, because we are learning lessons 
with each new accident, and the urgent recommendations ask for 
more robust tank cars. We are finding that the current tank 
cars may be more robust against puncture, but they are not more 
robust against thermal release. We want to inform the process 
as quickly as we can and issue recommendations as needed. The 
best we can say is that every event we see helps us better 
inform how to improve safety.
    Mrs. Bustos. Thank you, sir. I have used up my time. If I 
may say very quickly, Ms. Feinberg, you have been very, very 
helpful. I appreciate how you reached out to me proactively, as 
soon as this derailment happened in our district. So thank you.
    Mr. Denham. Thank you, Mrs. Bustos.
    Mr. Butters, in 2011 we reauthorized the Pipeline Safety 
bill, section 23, the maximum allowable operating pressures of 
natural gas pipelines. Why has PHMSA failed to meet the 
deadline to implement the 2011--it was supposed to be done in 
18 months, it is still not done yet today.
    Mr. Butters. Thank you, Mr. Chairman. As--that is part of 
our gas rule, the notice of proposed rule, which we are working 
with--still within the Department of Transportation, in trying 
to get that rule in final shape, so we can get it out. So we 
are working vigorously to get this thing completed, so that we 
can publish that NPRM.
    Mr. Denham. Working vigorously for 4 years. I mean the same 
situation with the DOT-111s. This was something that was 
proposed back in 2011. You said, Ms. Feinberg, in the THUD 
appropriations meeting, that DOT has been working in earnest 
for 18 months on the tank car rule. This has been since 2011. 
Four years, we are still having challenges with pipelines, we 
are still having challenges with tank cars. Why is it taking 4 
years to come up with a new rule? Ms. Feinberg?
    Ms. Feinberg. Thank you for the question. That is right, I 
did say that in the THUD committee, and that is accurate.
    I believe that their--that the agency started work on DOT-
111 rulemaking, a tank car rulemaking, earlier in the 
administration and had some--and the process slowed down a bit. 
I will say what I said before, which is that our only option is 
to work within the process that exists for these rulemakings. 
And, while I think we should always be pressured to move as 
fast as we possibly can, it is also just generally a long and 
very thorough process, with multiple steps that take quite a 
long time.
    Mr. Denham. Mr. Butters, do you have anything to add?
    Mr. Butters. The only thing I would add, sir, is that, 
being cognizant of this tank car issue, which NTSB, of course, 
issued a recommendation, our tank--the tank car committee that 
operates within DOT that brings the tank car manufacturers 
together, the shippers, the carriers, have been working on this 
tank car specification issue for a number of years. We have 
relied on their process to develop that right specification.
    Obviously, with the huge growth in transportation of this 
product required the acceleration of that process. But, as 
Administrator Feinberg indicates, the--we are bound by the 
process that we have to follow. And, because of the 
complication of this particular rulemaking that not only 
addresses railcar specifications, but rail operations and other 
factors, to put that final rule together is complex, and it 
just--has taken quite a bit of time.
    Mr. Denham. Come on, that is just an excuse. Four years. It 
is 4 years now. I understand rules take a lot of time. Whether 
it is an emergency or a congressional order. With the PHMSA 
2011 reauthorization, it was a congressional order, and it has 
still taken 4 years.
    Now, again, I appreciate that the two of you are Acting 
Administrators, and the two of you have been very gracious with 
your time, and certainly have been very responsive in 
communicating with this committee. But 4 years by this 
administration? I mean, not only is this committee frustrated, 
the folks that we represent, the American public, are 
frustrated. They are frustrated any time we have another 
pipeline that explodes or has challenges. We are frustrated 
every time that there is a train that hits a high-centered farm 
truck, or goes off the rails, and we have an explosion, because 
there is no tank car rule. Four years is too long. We can't 
have any more excuses on these.
    Ms. Feinberg. I would say that no one is more frustrated 
with how long this process takes than those of us who are in 
the middle of the process and responsible for it. And I think 
there is no one who believes that this process is one that 
moves fast enough.
    Mr. Butters. And the other thing I would add, sir, is that 
we recognize the importance of this rule, but we also recognize 
that actions can be taken and are being taken outside of the 
rulemaking process to address some of these safety issues.
    The Secretary of Transportation, and all the modal 
administrations, are acting within their full authority, 
whether it is through emergency orders, advisory bulletins, or 
other actions, and using the influence that we can with the 
industry to have them step up and take additional actions to 
address these safety issues.
    This rule that is coming out is not going to be an 
overnight fix. It is going to take time. And----
    Mr. Denham. And that is the frustration. We understand that 
it is going to take time to implement it. As you heard from 
Chairman Mica earlier, we are expecting 10 years is what the 
industry is saying it is going to take to upgrade these tank 
cars. We are still going to be moving Bakken crude during those 
10 years. We are still going to have challenges with not only 
creating those American jobs in our districts that actually 
make these tank cars, but actually getting them out on the road 
to make America safe.
    So, again, very frustrated about the length of time it has 
taken to come out with this rule. We also want to see the 
implementation process and see that expedited, as well.
    I have got one final question. In the Bush administration, 
FRA tried to mandate the installation of ECP brakes. And last 
week, Ms. Feinberg, you had said that a lot of people in FRA 
believe ECP brakes could be a game-changer. Do you think that 
they are a game-changer? And is there any plan by FRA to again 
look at that mandate, or to come up with funding to help to 
implement it?
    Ms. Feinberg. We have taken a close look at ECP braking. We 
do----
    Mr. Denham. And I would ask for a quick response, because 
my time has expired, and----
    Ms. Feinberg. Yes.
    Mr. Denham. You can also submit that in writing. But if you 
can give me a quick response, I would appreciate it.
    Ms. Feinberg. We are supportive of ECP braking. We do 
believe that it is a game-changer on safety. I am happy to get 
back to you with the rest on the record.
    Mr. Denham. Thank you. Ms. Napolitano, you are recognized.
    Mrs. Napolitano. Was Mr. Garamendi----
    Mr. Denham. No. No, but you----
    Mrs. Napolitano. Thank you, thank you.
    Mr. Denham [continuing]. Happily have him go before you.
    Mrs. Napolitano. That is fine, thank you. Thank you, Mr. 
Chairman. And certainly there are certain questions that I have 
had, because my district is one of the heaviest urban rail 
traffic in the country, with the Alameda Corridor, with 
freight, Amtrak, and Metrolink commuter rail.
    The Alameda Corridor-East was established by communities to 
build grade separations. And I have heard you talk about the 
importance of those. However, there are crossings, 40-plus, in 
my district, and only about 20 are--have--less than half are 
built, and the others are in the process. And the--yet the 
railroad only provides 1- to 3-percent contributions.
    I wish somebody would start working on being able to impose 
upon them the ability to get that--how would I say--delivery 
expedited, delivery to the east, a little more seriously, in 
order to be able to get that done. And I am glad the 
administration's GROW AMERICA includes a section on that for 
the freight program to mitigate the negative impacts it has on 
urban areas. And I think that is important, not only for 
passenger safety, for employee safety, but also the fact that 
we have had--not recently--derailments in my area, and train 
accidents that, thank God, UP was able to replace miles of that 
with new rail, because the increase--expected increase in rail 
traffic.
    But on the Positive Train Control there is a lot of 
discussion on that. But we need to be able to get a report on 
the cost, on the ability, and the feasibility of being able to 
implement it, especially in urban areas that have a greater 
impact.
    And also, the implementation, what is the timeframe that we 
have? I know it is December of this year, and there may be an 
extension, based on the need. Most of them are--say it is 
financial. But we need to be able to understand it a little 
better on that area.
    And we talk about the ability to get all these things done, 
but what about your budgets? Do you have enough budget? Have 
your budgets been cut? Because we expect a lot, and yet we are 
initially saying, ``OK, cut different projects and programs 
that are important to the safety and welfare of our communities 
at stake.'' So that is another area that I would like to have 
you tell us about.
    And the shipments, whether it is 110, 120 containers per 
railroad shipment. There is over 40 coming through my district 
now. And I know that at one point there was an effort to put in 
a 3\1/2\-mile train, which would have created a lot of issues 
for my area.
    The other area is inspectors and inspections. Do you have 
enough inspectors? I understand you still--for the bridges, you 
only have--you have eight, of which two are vacant. And where 
are we with that?
    Then the aging infrastructure that we talk about, we have 
had a report from this committee years ago by the--an agency--I 
can't remember, it is outside--that graded our bridges and gave 
us Ds and Cs, mostly. Are we putting away enough money to be 
able to provide assistance to the locals when they are 
privately owned, but are we doing--are we--do we have enough 
money to be able to get those bridges safe enough to where, if 
we are utilizing for trucks or rail, that we have that ability 
to do that?
    Pipelines, yes. I have one in my area. But it was a leak on 
a transfer station that is still being cleaned up, after 25 
years. So those are major issues that we need to be able to 
ensure that technology advances to--that we are able to detect 
leaks and take care of them. Because the taxpayer ends up 
paying for it.
    Any comments on all my comments?
    [Laughter.]
    Ms. Feinberg. Sure. And we--in order to keep with the time, 
I am happy to give you more fulsome answers. We can get those 
back----
    Mrs. Napolitano. That is all right. He took a minute and a 
half----
    Ms. Feinberg. No, no, I will keep going. But just--if I 
don't get to everything, we are more than happy to provide 
more. So I will go through some of these, though.
    On crossings, we have asked for additional funding in the 
GROW AMERICA Act. And, in fact, we also just released a notice 
of funding availability on some grants----
    Mrs. Napolitano. How about from the railroads, themselves?
    Ms. Feinberg. The railroads do pay a small portion of--
agreed. And I know that these are burdensome expenses for local 
communities.
    We also put into our budget a significant increase in a 
pool of funding that is available for communities to ask for 
assistance in grade crossings, grade separations, and also rail 
relocations. And so we have sent that to the Hill, as well.
    In terms of PTC, we actually have a report due to the 
Congress in the next few months--I believe in June--which we 
are aiming to get to the Congress on time, if not early, which 
would be an update to our latest thinking about PTC 
implementation. I know the commuter railroads, in particular, 
need assistance with PTC implementation. And we have both 
called for that in GROW AMERICA, and also in our budget, as 
well.
    I want to make sure I talk about everything you asked 
about. Bridge inspectors, we covered that a little bit earlier. 
You are correct, that we have six of eight positions filled at 
this point. The responsibility for the inspection and 
maintenance of bridges is a responsibility of the railroads. We 
audit and inspect with the railroads to ensure that they are 
holding up their end of bridge maintenance and inspection.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Denham. This is once again my time, but I would gladly 
yield 5 minutes to the gentleman from California, Mr. 
Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Denham and, 
Chairman, thank you.
    First of all, Ms. Feinberg, thank you very much for joining 
us last week in Davis, where we talked about the volatility of 
oil. I would recommend or ask that the DOE report--which was 
actually not a study, but, rather, a study of studies--be part 
of the record. I think it would be informative. I think it has 
been--that study has been misused here in some previous 
questions.
    Also, PHMSA, you released a report in August of 2014, in 
which you concluded that the Bakken crude light crude oil with 
high gas content, low flash point, low boiling point, and high 
vapor pressure, and, therefore, highly volatile. Is that 
correct? Did you do that?
    Mr. Butters. Highly flammable----
    Mr. Garamendi. Yes, you did.
    Mr. Butters. Yes, it was highly flammable, yes.
    Mr. Garamendi. Yes, highly flammable.
    Mr. Chairman, a moment ago--well, actually, a few moments 
ago you spoke very clearly and strongly about the frustration 
that you have about the process taking so many, many years. 
And, indeed, it has, usually because of our intervention, 
because of industry intervention, and also because of the law 
itself.
    We know, categorically, that Bakken crude is highly 
volatile and very explosive. Is that correct, from all three of 
you? Is it?
    Mr. Butters. It is a highly flammable liquid, and there are 
variations, but it does have high volatility, as well.
    Mr. Garamendi. Is it explosive, Mr. Hart?
    Mr. Hart. It is flammable. Explosive and flammable are 
variations on the same thing, yes.
    Mr. Garamendi. Very good. So, Mr. Chairman, let's end our 
frustration. We are going to be writing legislation here very, 
very shortly to extend the surface transportation bill. Why 
don't we write in to that legislation the regulations that are 
forever stuck in OMB that have been written by the two 
organizations here that speak to tank car safety standards, 
that speak to volatility, speak to tracks maintenance, 
information to the first responders?
    All of those things are in the proposed regulations that 
are stuck in OMB. And, given the nature of regulations, the 
chances of those regulations, if they ever get out of OMB, 
being held up by some court challenge is very, very high. We 
could write laws that protect the public. We have the basic 
information. It is available from the regulations that have now 
been sent on to OMB. Why don't we do that? Why don't we take 
this as our responsibility, and not only the responsibility of 
the agencies, but rather, our responsibilities?
    Set a standard. Texas has set a standard for volatility. 
Canada has set a standard for volatility. The United States 
sits here and goes back and forth and, ultimately, puts 
millions of our citizens at risk. I know they are in your 
district, Mr. Denham, as they travel down through the Central 
Valley. They are in my district, in Marysville, West 
Sacramento, Sacramento, Davis, Dixon, Suisun City, and beyond.
    Why don't we just do it? Why don't we take the Texas 
standard, put it in place? Apparently, Texans are able to get 
along with it. Why don't we take the Canada standard, cut the 
difference between the two in half, and let it go? It is 
clearly better than where we are today.
    OK. So, I would ask that the two statements, the PHMSA 
statement of--report of August 2014, and the DOE study be put 
in place. And maybe we ought to subpoena the proposed standards 
that have come out of Ms. Feinberg and Mr. Butters's office.
    Enough. I yield back my remaining time. Thank you, Mr. 
Chairman.
    Oh, and by the way, before I quit, there has been a bill 
introduced, 1697, which I introduced. Love to have you as a co-
author, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Garamendi.
    Ms. Hahn?
    Ms. Hahn. Thank you, Chairman Denham. I think I am dead 
last. Thank you, though, for holding this hearing. I really 
appreciate it, and I know that you know that I have been very 
concerned about this, and I have spoken with you on a number of 
occasions about pipeline spills in my district. And this 
ongoing rulemaking is something I have been following very 
closely, particularly since I had a pipeline spill in a 
community that I represent in Los Angeles, the community of 
Wilmington.
    And I think part of what concerns me is that our pipeline 
safety is completely dependent on simply taking the word of the 
operators. And this was precisely the problem in Wilmington, 
where Phillips 66 reported to the State of California and PHMSA 
that the pipeline that they operated was empty. They even tried 
to tell me it was idle, which was, apparently, not even a 
category, when, in reality, it held over 1,000 gallons of oil. 
And when this pipeline ruptured, it spilled, you know, a lot of 
barrels of oil into a residential community.
    And so, if operators can't meet their end of the bargain to 
know and report what is in their pipeline to ensure the 
public's safety, I believe our Federal agencies need to do 
more, and I really urge you to continue to act in the name of 
public safety, first and foremost.
    And, Mr. Butters, I will just echo what everyone said here. 
It is unbelievable that this relatively simple rule, which has 
universal support, is still pending. And I know you have spoken 
that a lot, but you know, I think, in my community, no one knew 
the danger of this particular pipeline.
    So, let me just move from the recordkeeping, which is part 
of this rule, which is still pending, and how your agency will 
define high consequence areas. There are hundreds of pipelines 
in southern California, many of which are inactive, many of 
them are active. There are lots of pipelines in my district. 
And I am concerned about another accident.
    I was particularly frustrated with this spill in 
Wilmington, which resulted in only a $75,000 fine against 
Phillips 66. You know, this really--we--it clearly was not on 
the same level as San Bruno, but my residents were highly 
inconvenienced. Roads were damaged, yards were damaged, 
jackhammers which went to try to discover and stop this leak 
completely disrupted the streets for a week, people couldn't 
even get to--out of their houses or back into their houses.
    So, can you give me some assurance, and my constituents, 
that there will be appropriate penalties for spills in high 
consequence areas?
    Mr. Butters. Thank you, ma'am. As part of the rulemaking 
process, that is exactly what this will do. It will be a notice 
of proposed rule, which will outline what we believe should be 
the appropriate penalties and actions. We are going to seek 
input on that from the public, from other stakeholders, as 
well.
    We want to ensure that we have the necessary incentives, if 
you will, to do things safely. As you pointed out, the 
situation in Wilmington, the operators are required to know 
their own systems. And in this case, you know, there is no such 
thing as an idle pipeline. It is either abandoned----
    Ms. Hahn. Right.
    Mr. Butters [continuing]. Or it is an active line.
    Ms. Hahn. Right. And when it is abandoned, there is a 
specific process that takes place. It is cleaned out, it is 
sealed. And, if it is active, there are inspection procedures 
in place.
    Mr. Butters. That is----
    Ms. Hahn. So, for them to claim that it was idle meant that 
they did neither. They neither cleaned it out and cemented it 
on both ends, nor did they have this regular, you know, zipping 
through the pipeline on regular inspections. This put my 
community at risk.
    Mr. Butters. And we certainly appreciate and are--you know, 
understand that.
    One of the things I wanted to say about the civil 
penalties, obviously, you know, we do have limitations on what 
civil penalties we can enforce. But, at the same time, in order 
for a pipeline operator to either restart a line, we dictate 
a--usually, a very extensive corrective action order that, in 
order to comply with that order, costs quite a bit of 
investment of capital, and requires a lot of these operators to 
do that. And it can run into the millions and millions of 
dollars. So we want to ensure that before they bring a pipeline 
back into service, that they have addressed thoroughly all the 
safety considerations that need to be addressed.
    Ms. Hahn. Right. And I have even suggested--this was about 
a purchase 15 years earlier of this pipeline. I have even 
suggested that we have a third party verify when they try to 
tell us it is inactive, idle.
    And the other thing, you know, we had a big 
misunderstanding with the California Fire Marshal on this 
issue, in terms of how they interpreted our Federal law and the 
classifications of pipelines. So can you tell me what PHMSA has 
done in the last couple years to improve how our States are 
interpreting the Federal law, and maybe what actions are being 
taken to improve this relation? That was--half my battle was 
with the California Fire Marshal, and how they saw this Federal 
law applying to active, inactive, idle.
    Mr. Butters. Sure. In California, the California Fire 
Marshal has regulatory oversight over liquid lines. The utility 
commission has over gas lines.
    Part of our training program with our State partners is to 
ensure that these agencies understand the regulations. And 
there are times where the understanding, interpretation, isn't 
what it needs to be. When we identify that, we act on it. And 
it is a continuing activity with us, with our States.
    You know, as you know, we provide funding to the States to 
support their inspection program. Part of that program includes 
ensuring that they understand regulations and how they should 
be applied. But, obviously, there are going to be situations 
where there are some inconsistencies. And when we find out 
about those, and we are made aware of those, we act very 
quickly to address them.
    Ms. Hahn. Thank you.
    Mr. Denham. Thank you.
    Ms. Hahn. And thank you, Mr. Chairman, for the extra time.
    Mr. Denham. Thank you, Ms. Hahn.
    Ms. Hahn. I yield back.
    Mr. Denham. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman, for having this. And I thank the panel for being 
indulgent with your time, and my colleagues, as well.
    I hope you take away the importance of this issue. I have 
never seen more Members attend a hearing and stay as long as 
they have to ask questions.
    Ms. Hahn. Yes.
    Mr. Capuano. This is an issue that is important, 
personally, to a lot of Members, which is why I let my other 
colleagues go, because, fortunately, I have had no personal 
experience with these items. Many of my colleagues have, if you 
heard them. And I think, if nothing else speaks volumes, it 
should be the fact that they are still here, and every single 
Democratic Member wanted to speak--I think only two Members had 
to leave because they had previous commitments--and they wanted 
to speak, as well.
    I think you have heard a lot of the frustration. For me, 
these issues, a lot of these issues are--to be perfectly 
honest, as I learn more and more about them, I am amazed at how 
many issues we have on the table, and how many open issues we 
have. There's too many of them. And they are not new.
    You know, just a quick list. We have got the 111 cars, we 
have got Positive Train Control, first responder notice, in-cab 
video just on the rail side. On the pipeline side we have got 
the automatic shutoff valves, the remote shutoff valves, 
pipeline integrity, pressure management, the Grandfather 
Clause, and HCAs, which is an interesting term in itself. 
Basically, you should just say cities, but that is a different 
issue, all together.
    And, on top of that, we have got the NTSB that has been 
calling for various regulations forever. Forever. We have had 
Congress, on several occasions, had to put in statute how long 
it should take to do these things. And that has been blown by.
    Now, I don't want to, you know, besmirch either Ms. 
Feinberg or you, Mr. Butters. You are both new to your terms, 
but you are not new to the issue.
    Mr. Hart, I guess the question I have to ask you is not 
specifically on the specific items. You know, we have to 
reauthorize PHMSA reasonably soon. Should we? Or should we come 
up with something new? Is it working? Is it not working?
    And, again, I don't mean--I am not trying to besmirch the 
agency, but there is something wrong. There is something wrong. 
And I am not sure, as one Member, whether it is both agencies 
have become captive to the industry. You won't be the first 
regulatory agency to become a captive of those you are supposed 
to regulate.
    I am not trying to kill the railroads. Railroads are 
important to this country. We need to be able to transport 
goods. But we need to be able to do it in a safe manner. And, 
to be perfectly honest, taking 4 years for a regulation, there 
is no excuse, period. None. On an issue like this it is not 
that complicated. Either you do it or you don't. Canada did it 
in about a blink.
    We now have--I have never seen this. We have a major rail 
company that is ahead of the regulators. They are about to stop 
the use of 111s and lower their speeds without being told to do 
so. That is amazing to me. I have served the entire time here 
on the Financial Services Committee. No bank has ever done 
that. And yet here we are.
    And, by the way, when that happens, what is going to happen 
to the more dangerous cars? They are going to be shifted. They 
are going to be shifted out of Canada, and they are going to be 
shifted off of that one rail company's rail lines into my area. 
How is that right?
    Mr. Hart, should we reauthorize PHMSA? And, if we should, 
what should we do to make sure that this works?
    Mr. Hart. I will take the liberty of taking the 
reauthorization question as a rhetorical question. But I would 
like to say that----
    Mr. Capuano. It may not be.
    Mr. Hart [continuing]. We have experience in other 
industries where we certainly need the regulators. We need the 
regulators at the appropriate levels. A model that has worked 
best in many industries to improve safety is collaboration 
among everybody in pursuit of a common goal, which is improving 
safety. That is what we find works best--not just push by the 
regulator--everybody collaborating to work together toward a 
common goal.
    Mr. Capuano. So where is the problem here? Is it at PHMSA 
or is it the individual agencies? Is it OMB? I mean is it the 
Secretary? I mean these rules are kind of around. First of all, 
we don't have half the rules that I think we should have. And 
the ones we do have seem to be lost somewhere on the 
Secretary's desk or somehow lost in OMB. And, by the way, we 
don't even know what is in the rules that are lost. What kind 
of a process is this? And how do I make it better? Whose butt 
do we have to kick? Whose budget do we have to cut? Whose 
budget do we have to enhance to make this work?
    Mr. Hart. The best I can say on that, again, is that the 
experience--and I am speaking specifically of the aviation 
industry. They have such a powerful collaboration that has 
improved their safety over the years without many new 
regulations, without--I mean the Federal regulator plays a role 
in that process, to be sure. But the real advances have come 
because of the----
    Mr. Capuano. The aviation industry has other problems. They 
can't seem to be getting all the things that we all want 
actually in place. But that is, at least, a different issue.
    Now, Ms. Feinberg and Mr. Butters, I really don't have 
questions--my time is up anyway--because I have so many 
questions it is not worth the 5 minutes to do it. Plus, we have 
met privately, we will be meeting again.
    The more I learn, the more I realize we have got to make 
this work. And if you need help, you need to ask. You need to 
tell us what you need. Otherwise, it will become something a 
lot more controversial, because it will become something more 
face-to-face. And that is not helpful, that is not what I want 
to do. It is not what you want to do. Tell us how to help you, 
as we go forward, and we will try to do it. And if we can't, we 
will tell you that. At least let us know what the problems are. 
But to sit here and tell us that, you know, ``We are working on 
it 18 months, 4 years,'' you know that is unacceptable. You 
would never accept that if you were on this side of the table. 
And please don't expect us to.
    I look forward to the next hearing. And, again, I thank the 
chairman for his indulgence. I thank my Members for showing up. 
And I thank the panel for helping us out on this.
    Mr. Denham. I, as well, would like to thank the panel. As 
you saw, we went over time today. Certainly appreciate your 
indulgence. As you can see, this is an issue or issues that 
have the entire committee concerned, interested, focused on. 
Affects their district, affects the entire country.
    And so, we will be following up with questions in writing, 
and we will be holding another safety hearing later this year. 
I mean, obviously, we are looking to see the rules moving 
forward, but we are also going to be holding you accountable to 
those rules, as well as implementation of them.
    I would ask unanimous consent that today's record--hearing 
remain open until such time as our witnesses have provided 
answers to each of those questions that may be submitted to 
them in writing, and unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members, other questions that might be submitted 
by Members that had to leave early included in today's record 
of the hearing.
    [No response.]
    Mr. Denham. Without objection, so ordered.
    Again, I would like to thank our witnesses for their 
testimony today.
    If no other Members have anything to add, this committee 
stands adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
</pre></body></html>
